<html>
<title> - IRAQ: AN UPDATE FROM THE FIELD</title>
<body><pre>[Senate Hearing 110-256]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-256
 
                     IRAQ: AN UPDATE FROM THE FIELD

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED TENTH CONGRESS



                             FIRST SESSION



                               __________

                             JULY 19, 2007

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                                     
                    U.S. GOVERNMENT PRINTING OFFICE
40-380                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
BARACK OBAMA, Illinois               GEORGE V. VOINOVICH, Ohio
ROBERT MENENDEZ, New Jersey          LISA MURKOWSKI, Alaska
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   DAVID VITTER, Louisiana
                   Antony J. Blinken, Staff Director
            Kenneth A. Myers, Jr., Republican Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     1
Crocker, Hon. Ryan C., Ambassador to Iraq, Department of State, 
  Washington, DC (via video conference from Baghdad, Iraq).......     5
    Prepared statement...........................................     8
    Responses to questions submitted by Senator Feingold.........    29
    Responses to questions submitted by Senator Murkowski........    31
    Responses to questions submitted by Senator Obama............    33
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3

              Additional Material Submitted for the Record

Murkowski, Hon. Lisa, U.S. Senator from Alaska, prepared 
  statement......................................................    27
Obama, Hon. Barack, U.S. Senator from Illinois, prepared 
  statement......................................................    28
Voinovich, Hon. George V., U.S. Senator from Ohio, submitted the 
  following:
    Letter to President George W. Bush...........................    34
    ``The Way Forward in Iraq''..................................    35

                                 (iii)

  


                     IRAQ: AN UPDATE FROM THE FIELD

                              ----------                              


                        THURSDAY, JULY 19, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:33 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Kerry, Feingold, Boxer, Nelson, 
Menendez, Cardin, Casey, Webb, Lugar, Hagel, Coleman, Corker, 
Sununu, Voinovich, Isakson, and Vitter.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    The Chairman. The hearing will come to order.
    I've asked our--we welcome all of our guests, and we're 
truly happy you're here. But let me say to you, this is a bit 
of an unusual hearing, in that we are using a telephone 
connection from Baghdad. Our Ambassador, Ambassador Crocker, 
who we know well and I have great respect for--I have--matter 
of fact, I spent some time with him in an underground bunker in 
Afghanistan once we opened up the--he opened up the Afghan 
Embassy, right after the Taliban fell. But I'm going to ask the 
audience if they'd help us out a lot. We don't know exactly how 
good this connection's going to be, and we know there's going 
to be a delay. So, you're going to hear a slight delay, and I'm 
not sure how the--how good the audio is going to be. So, if you 
would all just help us out and be very quiet, it would be 
useful. It may be of no consequence. It may be as crystal clear 
and as wide open as if he were sitting in front of us.
    And--but we're going to wait another moment, because--well, 
I guess we'll start.
    Ambassador Satterfield is going to be here, from State. 
Well, actually, I guess--is he coming now? He's just arriving.
    Welcome, Mr. Ambassador. Thank you very much for being 
here.
    What we're going to do now--and I can see Ryan--I can see 
our Ambassador in Baghdad--I'm going to make a brief opening 
statement, and turn it over to my friend Chairman Lugar, and 
then we'll hear from Ambassador Crocker.
    Ryan, thank you very much for accommodating our schedule. 
It's very important to us and to the Senate that we hear from 
you, and we thank you very much for accommodating us. You 
probably have a longer delay than 1 second in hearing me.
    But, with that, let me begin my opening statement.
    Mr. Ambassador, again, thank you for joining us. And I'd 
also like to, as I said, welcome Ambassador Satterfield, who is 
here in the committee room.
    In case we have a breakdown, we may turn to you, Ambassador 
Satterfield, but you're welcome to chime in, any way you think 
is appropriate. And I'd like to express my appreciation to you 
and the Embassy staff.
    Mr. Ambassador, we recognize the hardships you face, and we 
are truly grateful--truly grateful--for your service. Most of 
us--I think all of us here today have been to Baghdad. We have 
been, in my case, and in many others, seven or more times; I'm 
sure others, as well. And it is not an exaggeration to say you 
are truly, truly risking your good life for our country, and we 
appreciate it.
    The purpose of this hearing is straightforward. Mr. 
Ambassador, we hope to hear from you in a candid and 
unvarnished assessment of the situation on the ground in Iraq, 
especially the political situation.
    The primary goal of the President's military escalation, or 
buildup, or whatever--I don't want to be pejorative--whatever 
you want to call it--was to buy time--was to buy time for the 
Malaki government to make compromises and political 
reconciliation.
    Last week, the administration delivered an interim--an 
interim assessment of the Iraqi Government's performance on 18 
specific benchmarks.
    The government made the least amount of progress, in my 
view, where it matters the most, on the key political 
benchmarks: Oil laws, provincial elections, constitutional 
revisions, and de-Baathification. I am of the view that, absent 
real political movement, there is no ultimate solution. So, 
maybe you will talk to us about whether or not these political 
benchmarks--oil, provincial elections, constitutional 
revisions, de-Baathification--are as important as--
    Sir, would you get out of the way of the screen, there? I'm 
going to ask you to move. Thank you. Because we cannot see the 
screen.
    The final assessment is due in 2 months. And the Iraqi 
Parliament is taking one of those months off. Given the lack of 
progress since the surge began, 6 months ago, what gives you 
the confidence that we will see any progress between now and 
September? And, if you'd be willing to tell us--what can you 
tell us that will give us any confidence that the final report 
has any prospect of being one better than what we just 
received?
    Mr. Ambassador, you're in a tough spot. I believe that the 
President's policy, which you are being asked to execute, is 
based on a fundamentally flawed premise--and, I might add, the 
position of some Democrats, I think, is based on a similarly 
flawed premise--and that is, if we just give the cental 
government time, it will secure the support and trust of all 
Iraqis, that there'll be a unity government that can actually 
deliver security, services, and an effective government.
    In my judgment--and I know you know this, it's been my 
judgment for well over 2 years now--there is no possibility of 
that happening. But that's purely my judgment. It seems to me 
that there is no trust within the government now, no trust of 
the government by the people. And I don't see any realistic 
possibility of a capacity developing, on the part of the 
government, to be able to deliver security and basic services. 
That is, the central government. And I see no prospect of 
building that trust or capacity within the ensuing several 
years.
    I've been saying this for some time. I know I sound like a 
broken record to my colleagues. But I really believe, unless we 
decentralize this process, we're in real trouble.
    And, by the way, it's not just me. The director of the CIA, 
General Mike Hayden, back in November 2006, told the Iraqi 
Study Group, ``The inability of the central government to 
govern is irreversible.'' That was the assessment of our CIA in 
November of last year. Has anything changed?
    The trust--the truth is, in my view, Mr. Ambassador, Iraq 
cannot be governed from the center, absent a dictator or 
indefinite occupation. And neither of these are reasonable 
possibilities. Instead, I believe we should promote a political 
settlement that allows the warring factions breathing room in 
their own regions and control over the fabric of their own 
daily lives, their own police forces, their own laws and 
education, jobs, marriage, religion. And a limited central 
government would be in charge of truly common concerns, 
including protecting Iraq's borders and distributing oil 
revenues.
    None of this is an American imposition. It's entirely 
consistent, as you know, with the Constitution. Probably you 
and I and my colleagues are among only the few people who have 
ever read that Constitution. I've read the Constitution, and 
the Constitution talks about this country being a decentralized 
federal system. We continue to seem to want to centralize the 
federal system. I would argue the Articles of Confederation are 
closer to what they wrote than in the Constitution.
    But, having said that, it seems to me we have to also 
initiate diplomatic offensive to bring in the United Nations, 
the major countries, and Iraq's neighbors to help implement and 
oversee a political settlement. It is past time to make Iraq 
the world's problem, not just our own.
    So, Mr. Ambassador, whether you agree with what I'm 
proposing or not, the bottom line is this. Just about everyone 
now agrees there is no purely military way to bring stability 
to Iraq. We need a political solution. So, I want your best 
assessment of the prospects of a political settlement, what it 
would look like, and how you think it may be achieved. I look 
forward to hearing your testimony. And, again, Ryan, I want to 
thank you. I saw you, firsthand, under incredible pressure in 
Afghanistan, and I have watched you now. I am very--not that 
you need me to be proud of you--but I am very proud we have men 
and women like you, of your caliber, in the Foreign Service. I 
thank you for your service.
    I now yield to Chairman Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Mr. Chairman, I join you in welcoming 
Ambassador Crocker as the Senate continues to debate U.S. 
policy in Iraq.
    The future of that policy increasingly appears to depend on 
the administration's report, due in September. Regardless of 
what the report says, however, we must begin now to prepare for 
what comes next.
    It is likely that there will be changes in military 
missions and force levels as the year proceeds. If U.S. 
military leaders, diplomats, and, indeed, the Congress are not 
prepared for these contingencies, they may be executed poorly, 
especially in an atmosphere in which public demands for troop 
withdrawals could compel action on the political timetable. We 
need to lay the groundwork for alternatives so that when the 
President and Congress move to a new plan, it can be 
implemented safety and rapidly.
    I am encouraged that the President has announced he is 
sending Secretary of State Rice and Defense Secretary Gates to 
the region to engage in concentrated diplomacy. I would observe 
this diplomacy must be ambitious, sustained, and innovative. It 
must go well beyond conferences with allied nations. We have to 
consider how diplomacy can change the equation in the region in 
ways that enhance our prospects for success in Iraq.
    Regional diplomacy is not just an accompaniment to our 
efforts in Iraq, it is the precondition for the success of any 
policy that follows the surge. We cannot sustain a successful 
policy in Iraq over the long term unless we repair alliances, 
recruit more international participation in Iraq, anticipate 
refugee flows, prevent regional aggression, generate new basing 
options, and otherwise prepare for future developments. If we 
have not made substantial diplomatic progress by the time a 
post-surge policy is implemented, our options will be severely 
constrained, and we'll be guessing at a viable course in a 
rapidly evolving environment.
    I believe the most promising diplomatic approach would be 
to establish a consistent forum related to Iraq that is open to 
all parties in the Middle East. The purpose of the forum would 
be to improve transparency of national interests so that 
neighboring states, including Syria and Iran, would avoid 
missteps. It would be in the self-interest of every nation in 
the region to attend such meetings, as well as the United 
States, the EU representatives, or other interested parties. 
The existence of a predictable, regular forum in the region 
would be especially important for dealing with refugee 
problems, regulating borders, exploring development 
initiatives, and preventing conflict between the Kurds and the 
Turks.
    A consistent forum in the Middle East is particularly 
salient, because that region suffers from conspiracy theories, 
corruption, and the opaque policies of nondemocratic 
governments. We should be meeting with states on a constant 
basis and encouraging them to meet each other as a means of 
achieving transparency. We should not underestimate the degree 
to which the lack of transparency in the Middle East 
intensifies risks of conflict and impedes solutions to regional 
problems. A constant, predictable, diplomatic forum would allow 
countries and groups to keep an eye on one another. And such a 
forum would make armed incursions more risky for an aggressor. 
It would provide a means of applying regional peer pressure 
against bad behavior. It would also complicate the plans of 
those who would advance destructive sectarian agendas. If 
nations or groups decline to attend or place conditions on 
their participation, their intransigence would be obvious to 
the other players in the region.
    We know the task of initiating even a partial military 
redeployment from Iraq will be an extremely complicated and 
dangerous undertaking. I am hopeful that you, Ambassador 
Crocker, will shed light today not just on prevailing 
conditions in Iraq, but also on what is being done to prepare 
for a post-surge strategy.
    I appreciate very much your making time to hear us. Thank 
you, sir.
    The Chairman. Again, Mr. Ambassador, thank you very much. 
And the floor is yours. If you--I'm sorry. Thank you very much, 
and the floor is yours, Mr. Ambassador.

    STATEMENT OF HON. RYAN C. CROCKER, AMBASSADOR TO IRAQ, 
DEPARTMENT OF STATE, WASHINGTON, DC (VIA VIDEO CONFERENCE FROM 
                         BAGHDAD, IRAQ)

    Ambassador Crocker. Thank you, Mr. Chairman, Senator Lugar. 
Thank you for this somewhat unique opportunity to appear before 
the committee.
    I was last before you about 5 months ago for my 
confirmation hearing. I believe you received the statement that 
was prepared in advance. I will not take up the time of the 
committee reading through that. I will make a few observations.
    The Chairman. Yes, we have.
    Ambassador Crocker. Sorry, sir?
    The Chairman. I said we have received your statement, and 
it will be placed in the record, as if presented.
    Ambassador Crocker. Thank you, Mr. Chairman.
    I will make a few opening observations that deal with a few 
of the issues that you and Senator Lugar raised, and then look 
forward to questions.
    I've been in Iraq just a little less than 4 months. As you 
know, sir, I served here previously, in 2003, when I had the 
privilege of meeting you out here that summer. I was here 
earlier for a 2-year tour in the late 1970s, when Saddam ruled 
this country. Coming back, at the end of March, I was struck by 
a number of things.
    First, I was struck by the damage that a year and more of 
violence, mainly sectarian violence, had done to the city and 
this country, both physically, psychologically, and 
politically. I was conscious that this damage, as great as it 
was, did not take place simply in its own terms of reference. 
It followed 35 years of Saddam's rule, during which all forms 
of social and political organizations were effectively 
eliminated by terror from Iraq, throwing people back on the 
most basic of identities and loyalties, and inculcating a 
tremendous sense of fear, suspicion, and mistrust. That is the 
legacy from Saddam Hussein, that Iraq, its people, and its 
government have to deal with today--intensified and deepened by 
the sectarian violence of 2006.
    So, the challenges are immense. I, in no way, minimize the 
difficulty that Iraq faces, and that we face in support of the 
Iraqis.
    As a result of the surge, which, as you know, just hit its 
full stride in the middle of June, about a month ago, levels of 
violence, sectarian violence, particularly in Baghdad, have 
come down to a fairly notable degree. High-profile attacks, 
however, continue. Vehicle-borne improvised explosive devices 
are the best known and obviously the most devastating. Three 
days ago, there was one in Kirkuk that killed over 80 people. I 
was up in Kirkuk yesterday, meeting with local officials and 
some of our own personnel in the Provincial Reconstruction Team 
there, to get an assessment of the kind of damage these attacks 
do. And they work on fault lines--political, sectarian, 
psychological fault lines. And they continue.
    So, this is the context, Mr. Chairman, in which the Iraqi 
Government and Iraqi people must deal with their present and 
their future. And it is not at all easy.
    I certainly will not try to present the Iraqi Government to 
you as a model of smoothly functioning efficiency, because it's 
not. It faces considerable difficulties. The stresses, the 
strains, and the tensions throughout society are reflected in 
the government. And if there is one word that I would use to 
sum up the atmosphere in Iraq--on the streets, in the 
countryside, in the neighborhoods, and at the national level--
that word would be ``fear.'' This is the fear with which Saddam 
Hussein so effectively inculcated the country, it's a fear 
that's been intensified by the sectarian strains. For Iraq to 
move forward at any level, that fear is going to have to be 
replaced with some level of trust and confidence. And that is 
what the effort at the national level is about. That is what 
the benchmark process is about--national reconciliation--which 
is another way of talking about some basic level of national 
confidence. You've all seen the report. You know that Iraq has 
a considerable way to go.
    At this stage in the process, many of my efforts are 
focused on not only the push to help the Iraqis achieve 
benchmarks, but to develop the processes by which the work of 
the government might be carried forward, and in which 
confidence of those in government, and the people around them, 
might be further developed.
    I will give you just one example, very briefly. That is, 
the evolution of what the Iraqis are calling the Executive 
Council. This is the Presidency Council. The Kurdish President 
and the two Vice Presidents, one Shia and one Sunni, are 
meeting now on a regular basis with Iraq's Prime Minister, 
Nouri al-Maliki. Meetings are now scheduled every Sunday 
morning. There is a secretariat to help staff the four 
officials. There is an agenda. There are prepared minutes of 
the meeting. This brings, in particular, the leader of Iraq's 
Sunni community together with the Prime Minister in a venue 
where they can deal with the crises of the moment, but also, we 
hope, over time, chart a way forward on achieving both the 
legislative benchmarks and also the spirit of reconciliation 
that has to underlie them.
    Mr. Chairman, both you and Senator Lugar spoke of the 
region, and I would just make a few remarks in that context, 
and then, if you'll permit me, come back very briefly to 
address other comments you made about levels of government 
below the central authority.
    As you know, Iraq exists in a tough region. It was 
precisely to engage the neighbors in a constructive manner that 
we supported the establishment of the neighbors forum, which, 
as you know, has now met at the ministerial level, one time in 
Sharm el-Sheikh, at the beginning of May, and we look forward 
to further such meetings. This process also established a set 
of working groups, one of which has already met, the energy 
working group in Istanbul, at the end of last month, and two 
others are now scheduled, one on refugees, in Amman next week, 
and another on border security, in Syria at the beginning of 
August. We think this process is important. We think it should 
be intensified, precisely as a way of, again, bringing Iraq's 
neighbors into some constructive, rather than destructive, 
engagement on Iraq's present and its future.
    We would welcome, Mr. Chairman, as I think both you and 
Senator Lugar proposed, a more active role by the United 
Nations. They have done important work here in the past. We 
have been in contact here with the Special Representative of 
the Secretary General, in contact with the United Nations in 
New York and in Washington, to urge them to devote the 
personnel and the resources to Iraq that Iraq needs and 
deserves. There is a lot of good work they have done, and can 
do, on issues such as refugees and elections. And I, for one, 
would like to see them staffed more robustly to carry that 
forward.
    Finally, on the international level, there is another U.N. 
and Iraqi sponsored process, with which, of course, you are 
very familiar: The international compact with Iraq. That, too, 
had a successful ministerial at Sharm el-Sheikh in May. It also 
has developed followup mechanisms that bring the broad 
international community into engagement, primarily on Iraq's 
economic agenda. I think we need to continue to support and 
encourage this effort, as well, because it does benefit the 
whole process in Iraq.
    My final comment, sir, would be on government at different 
levels. As you have commented previously, we have seen some 
encouraging developments in Iraq over the last few months, 
primarily among Sunni communities, starting in the western 
province of Al Anbar, where tribal figures that had been, if 
not supportive of al-Qaeda, at least tolerant toward al-Qaeda, 
shift over so that they are now supporting coalition forces, 
and, by extension, the Iraqi Government. This phenomenon has 
spread to Abu Ghraib, just west of the city, in parts of 
Baghdad itself, and to other provinces, such as Diyala and 
Ninawa. I was in Ninawa yesterday, in Mosul, learning there of 
overtures from Sunni tribes who had once ferociously resisted 
the Iraqi Security Forces, now seeking to have its young men 
join both police and the Iraqi Army. So, I think, incorporating 
this shift, and working to further intensify it at the 
grassroots level, is important to the overall prospects for 
success in Iraq.
    In my view, Mr. Chairman, Iraq needs efforts at both these 
levels. Central authority, itself, is not sufficient, but a 
total decentralization, in the Iraqi context, I think, would 
also be both difficult and potentially dangerous as a prelude 
to nongovernance and potential chaos.
    Iraq is on a course, as you suggested, that is somewhere in 
the middle. The Iraqi Council of Representatives passed 
legislation earlier this year that provides for the 
establishment of regions. And, as you know, there is a Kurdish 
region, the Kurdish regional government already in existence. 
This legislation provides the framework for that. It also 
permits provinces in other areas to similarly constitute 
themselves as regions. That is part of federalism, in the Iraqi 
context, provided for in the constitution model legislated by 
the Council of Representatives. And I think this provides an 
effective way of dealing both with the need for a central 
authority in certain key areas, but also taking into account 
regional aspirations and regional capabilities.
    And, with that, Mr. Chairman, I would be happy to take your 
questions.
    [The prepared statement of Ambassador Crocker follows:]

Prepared Statement of Hon. Ryan Crocker, Ambassador to Iraq, Department 
                        of State, Washington, DC

    Thank you, Mr. Chairman. It is with pleasure that I appear before 
the committee for the first time since my confirmation hearing in 
February. Last week, the President submitted to Congress an interim 
assessment of the Government of Iraq's progress toward achieving a 
number of political, economic, and security benchmarks.
    I believe it is a fair assessment which demonstrates that while the 
Government of Iraq is making some progress, there is still much to do 
and much room for improvement. As we approach September, I and other 
senior-level Embassy officials are--on a daily basis--personally 
engaging with the highest levels of the Government of Iraq to make 
clear that progress on the benchmarks is imperative, to suggest ways 
forward, and to serve as honest brokers to promote compromise. At the 
working level, we also maintain daily contact with members of the Iraqi 
Council of Representatives, from committee heads to rank-and-file 
members, to monitor progress and serve as advocates for agreement on, 
and passage of, key legislation.
    We do much of our work discreetly. Those who would like to see our 
efforts fail in the hopes of stalling forward momentum past September 
15 are quick to recast our efforts as U.S. coercion and infringements 
upon Iraqi sovereignty. Recently, there were public demonstrations in 
Iraq's No. 1 ``oil city,'' Basra, condemning American pressure toward 
passage of a hydrocarbons law. But discreet should not be confused with 
ineffective, and we continue to make progress.
    I would like to add a general note of caution, however, about 
benchmarks. The benchmarks can be a useful metric; but the longer I am 
here, the more I am persuaded that progress in Iraq cannot be analyzed 
solely in terms of these discrete, precisely defined benchmarks 
because, in many cases, these benchmarks do not serve as reliable 
measures of everything that is important--Iraqi attitudes toward each 
other and their willingness to work toward political reconciliation.
    For example, I think if the committee examines the legislative 
benchmarks, it is quite possible that Iraq could achieve few of them 
over the coming months and yet actually be moving in the right 
direction. Conversely, I think it is possible that all the legislative 
benchmarks could be achieved without making any real progress toward 
reconciliation. Merely passing legislation without a broad consensus of 
all major Iraqi communities will not meet the goals of real or lasting 
reconciliation. Moreover, passing laws without the requisite consensus 
will undermine the political will for implementation on the ground 
following enactment. The benchmarks are useful tools if we remain 
focused on the broader context--the fundamental reconciliation issues 
facing Iraq that the benchmark legislation represents.
    Furthermore, I would note that the framework of these benchmarks 
focuses on the central government's capabilities and does not capture 
achievements made at the provincial level. The progress in the 
provinces, if properly nurtured, could be the basis for more 
substantial reconciliation efforts: A grassroots effort that produces 
security and prosperity for the citizens of Iraq.
    Our Provincial Reconstruction Teams report that local governments 
are taking the initiative--meeting the basic security needs of their 
citizens, planning and budgeting for reconstruction projects, and 
taking control of their futures by resisting
al-Qaeda. It is this kind of activity that provides a level of 
encouragement that potential shortcomings at the national level may be 
offset by the affirming activities of state and local governments. 
Moreover, Iraqis at the local level are seeing the results of an 
improved political and economic process which is critical for a broader 
national reconciliation.
    Realizing that local government, small business, services and 
employment must play a vital part in the stabilization and 
sustainability of a self-governing Iraq, we have sharply increased the 
number of our PRTs, and we are strengthening their staffs. We have 
deployed 10 new PRTs this year and 4 more will be coming in early 
September. I have to be honest and say we have not yet deployed enough 
people in those teams, and we are in the process of expediting staffing 
efforts.
    I know the committee is interested in our New Embassy Compound--a 
project which has benefited from your support. Overseas Buildings 
Operations Director Williams has assured us, as well as the Congress, 
that the NEC is on schedule and on budget for completion in September. 
We seek to move personnel into the safer NEC quarters as quickly as 
possible following installation of the necessary communications, 
logistical and other support services.
    I look forward to your questions and thoughts.

    The Chairman. Thank you very much.
    We will start this with 10-minute rounds. And if we run--
begin to run out of time, we will alter it, but we should be 
able to do the 2 hours, here.
    Let me begin by asking you, Mr. Ambassador--the Iraqi 
Constitution--I can't remember now, I think it's section 115 or 
116--talks about the establishment of regions, and it's what 
I've been talking about for some time. Is it not true that, 
under the Iraqi Constitution, any region that decides--of 18 
governorates--any one or more that choose to be a single--one 
governate can become a region, or they can combine with two, 
three, five, like they have in the Kurdish area--to become a 
region. Once you are--declare that, by a majority vote, is it 
not true that that region writes its own constitution?
    Ambassador Crocker. That is correct, Mr. Chairman. That is 
my understanding. That is what the Kurdish region has done.
    The Chairman. And what is available to the other 
governorates, as well, correct?
    Ambassador Crocker. Yes, sir. The region's law, passed by 
the Council of Representatives, implements that.
    The Chairman. Yes. Now, second, one of the things that, if 
you conclude that you are going to be a region--and I read 
article 115, ``The federal system in the Republic of Iraq is 
made up of a decentralized capital, region, and governates, and 
local administration.'' And section 116 goes and lays out and 
talks about the Kurdish region, and then 117 talks about this 
Council of Representatives can enact a way--a timeframe in 
which people become a region. And then it goes on to point out, 
in article 119 and 120, that if you choose to be a region, you 
can have control over your, quote, own security--your own 
security--like they do in the Kurdish area. There is no Iraqi 
Army, absent the Kurdish permission to move into there; they 
have their own local security. Is that not correct?
    Ambassador Crocker. That is largely correct; yes, Mr. 
Chairman.
    The Chairman. Now, next question I have is that you point 
out--which I and the--Chairman Lugar have been talking about 
from slightly different perspectives for 5 years now, or 4 
years now--this is a tribal society. There is no trust. As 
you've pointed out from the outset of your comments, that as a 
consequence of Saddam's tyrannical rule, that, in order to--you 
have gone back--they've gone back to basics, from the family 
unit to the tribal unit, to generate enough security and trust 
among themselves. That's what this tyranny imposed upon Iraq.
    And now we're in a situation where, as I see it--this is 
the question--is it not true that, even in the Sunni areas, 
there is no Sunni--or in the Shia areas, no Shia--overall 
unity? They are broken down into tribal and competing units 
within the Shia area, as we speak. Is that not true?
    Ambassador Crocker. Iraq, Mr. Chairman, presents a very 
complex picture. Iraq does have a strong tribal element in its 
society, but, in my experience here, both now and previously, I 
would not characterize all of Iraqi society as tribal. There is 
also a very rich urban society of long standing, certainly in 
Baghdad, but also in other regional centers, such as Mosul, 
Kirkuk, and Al Basrah.
    And, indeed, at a political level, while there are 
political movements that may be largely tribally based, there 
are also others that are very much crosscutting. The Iraqi 
Islamic Party, for example, the largest Sunni party in the 
coalition, is, to a large degree, an urban phenomenon, a 
middle-class urban phenomenon, of long standing. So, yes, 
tribal society is very important in understanding and dealing 
with Iraqi politics, but it's much more than that.
    The Chairman. I----
    Ambassador Crocker. You are absolutely right, sir----
    The Chairman. Go ahead, I'm sorry.
    Ambassador Crocker. You're absolutely right, sir, in my 
view, to emphasize the element of fear, because that has 
permeated all echelons of the society in this country, whether 
it's rural or urban, tribal or cosmopolitan. And that has to be 
overcome, in my view, Mr. Chairman. Whatever models the Iraqis 
choose, I would be concerned that none of them are going to 
work in the interest of Iraq's long-term security and 
stability, unless and until Iraqis, at various levels--local, 
provincial, regional, and national--are able to work through 
the fear that has been imposed on them into, and toward, a 
level of trust that at least permits basic compromises to take 
place and a new society to begin to build.
    The Chairman. In the interest of time, if I could interrupt 
you to get to a couple more questions, if I may--and I don't 
disagree what you've said--with what you've said. But the 
bottom line here is that almost 4 million Iraqis, many of them 
in that middle class from those urban areas, have either fled 
internally within Iraq or left the country. As I understand it, 
it's close to 1.9 million displaced in the country, 2 million 
have left the country. I think we're kidding ourselves if we 
think you can, from the center--from the center--build a system 
that eliminates the fear in the provinces, in the--outside the 
urban areas. And I have been very disturbed that this 
administration's failure to push for the ability of this 
constitution to take form has, in my view, led to this 
continued over-reliance on the idea that Maliki, or anyone 
else, no matter how well intended, representing elements of 
Sunni, Shia, and Kurd, would be able to, from the center, 
eliminate this fear.
    Now, let me get to my next point. I believe there is no 
possibility we will have 160,000 troops in Iraq, a year from 
now. It's just not going to be the case. So, time is running 
out in a big way. And so, unless we do something, in my humble 
opinion, like we did in the Balkans, which you're very familiar 
with, which is set up a loosely federated system--we've had 
20,000, on average, troops there--Western troops there--for 10 
years. Not one has been killed, thank God. It's not a answer to 
everything. But the genocide is stopped, and they're becoming 
part of Europe. To think that we can accomplish reconciliation 
from the center, I find to be well beyond any reasonable 
expectation.
    And let me get to my last question. You say that the 
benchmarks--in your statement--are not a reliable measure. 
Then, what is the measure of whether or not political process 
and reconciliation is taking place? And I would add, the very 
progress you show in Anbar province is the very thing having 
Shia leaders call me here in Washington, saying we're picking 
sides, that we are aiding and abetting the Sunnis in a civil 
war. I'm not suggesting that's right or wrong. I'm relaying the 
fear, the idea that we are making progress in the provinces, 
relative to al-Qaeda, I would respectfully suggest, is making 
it harder for you to deal with the Shia, generally, in 
accommodating a real political reconciliation.
    But what are the benchmarks--not benchmarks--what are the 
objective criteria we should be looking at to determine whether 
or not Iraqi attitudes toward each other, and the willingness 
to work together at reconciliation, is happening?
    Ambassador Crocker. Mr. Chairman, if I might start with 
your last point, what's going on in Al Anbar----
    [Video call disconnected.]
    The Chairman. I don't know what all this means, folks, but 
hang on. Stay tuned. The one thing we don't want to be looking 
at is a picture of me, the one thing I don't want to be looking 
at.
    Bertie, what's the story, do you know? I know--they're 
checking it out. I'm sorry. We're going to have a--thank you. 
We'd--our staff is on the phone with the technology experts 
trying to fix this. We may--we may be getting back up quickly 
here. We'll see.
    Do we still--do we still have--Ambassador Crocker, can you 
hear me? Because even if we don't have visual, we--if we have 
audio--I'm told we may still have audio. Is that--no, we don't 
have audio. Hang on a second, here.
    [Pause.]
    The Chairman. If we'll come to order, we're going to try 
this with just the audio. I don't know whether or not, and, Mr. 
Ambassador, you can hear us. Can you?
    Ambassador Crocker. Hello. Go ahead.
    The Chairman. Mr. Ambassador, we've lost the video, but 
if--Mr. Ambassador, can you hear us?
    Ambassador Crocker. Hello, can you hear us on the other 
end, please?
    The Chairman. Who is that speaking? Which end is up, here? 
Are we being asked if we can hear?
    We can hear you. So, Mr. Ambassador, just proceed with your 
comments. We went blank, and we lost you after I finished my 
questions. Would you proceed from there? The floor is yours, 
Mr. Ambassador, if you can hear me.
    [Pause.]
    The Chairman. Well, my microphone is off. I'm going to 
yield 10 minutes to the Senator, and then, I hate to say this 
to the rest of you, but we're going to cut back the time from 
10 minutes to 5 minutes, to make sure everybody gets in. It's--
I apologize.
    If we have time--I'm told the Ambassador had, from 
beginning to end, a little over 2 hours--so, if we have time 
after that, we'll come back to--not to the chairman and I, but 
we'll come back to all of you who have gotten cut out, here--
your time cut out. But, in order to get everybody in, I think 
it's going to--realistically, I'm told, we'll have to go closer 
to 5 minutes, assuming we get this connection at all.
    The Chairman. Baghdad, can you hear the U.S. Senate?
    Senator Boxer. That's the problem. [Laughter.]
    The Chairman. Let me say it another way--Ambassador 
Crocker, can you hear Joe Biden? No; they obviously can't hear.
    [Pause.]
    The Chairman. We're going to recess for somewhere between 3 
and 5 minutes to see if we can set this up, and we'll come back 
and figure out where we go.
    [Recess.]
    The Chairman. The hearing will come to order. We're going 
to the old tried-and-true method of a speakerphone. So, I'm 
going to put my microphone down here. And, Ambassador Crocker, 
if you can pick up where we left off, the floor is yours, Mr. 
Ambassador.
    Ambassador Crocker. Thank you, Mr. Chairman.
    Your question is a good one, because I think it brings into 
play several of the issues we've been discussing. You mentioned 
the concerns that had been expressed to you by Shia 
acquaintances over the impact of the Sunni outreach effort on 
their interests. And I think this illustrates why there needs 
to be a linkage between what happens in the provinces and the 
center.
    What we have done here, in close coordination with the 
Iraqi Government, was to establish, first, between General 
Petraeus and myself, a special section in the Multinational 
Force and the Embassy--it's cochaired by a Foreign Service 
officer and a British major general--to deal with engagement 
issues.
    Now, they work very closely with an Engagement Committee 
that Prime Minister Nouri al-Maliki has established through his 
office, and it is through this process that we deal, on the 
federal level--the central level, with the steps we're taking 
at the local level. And this has worked, in the case of Al 
Anbar, quite well, where the tribes that had a desire to get 
into the fight against al-Qaeda have been formed into 
provisional police units that have been vetted through the 
Iraqi Central Government, and who are paid by the Iraqi Central 
Government.
    So, I think this is the direction in which we wish to work. 
If we were to do this at a completely local level, without 
centralized connection, I think the phenomenon that you allude 
to there would very quickly overtake the process, fears and 
concerns that whatever was going on in one area was somehow 
deeply inimical to the interests of another. So, this way to 
connect what happens regionally and provincially to the center, 
I think, is very important as we move forward.
    The Chairman. Ambassador, thank you very much.
    When are regional elections going to take place? When are 
the governorates able to vote, if they wish to, to become a 
region? What date does that begin to occur? When does the law 
that was passed 8 months ago or so take effect?
    Ambassador Crocker. My recollection, sir, is that the 
effective date for the establishment of the regions is April 
2008. That would be--that would be the time after which new 
regions could be established, according to the law.
    The Chairman. Thank you. Thank you, Mr. Ambassador.
    I'm now turning it over to Senator Lugar. We've also got a 
picture back.
    Senator Lugar. Mr. Ambassador, are you aware of--or are you 
a part of any planning being done with respect to a transition 
in mission or redeployment of United States combat forces, 
something that might called plan B? Now, I ask this, because I 
understand, from widely reported press coverage, that back 
before the invasion in 2003, such integrated interagency 
planning, was being retarded by high-level political pressures 
and, therefore, had been abandoned. And I would simply want to 
know is any planning--and then, more importantly, are you or 
the State Department involved in interagency planning with 
regard to a so-called plan B?
    Ambassador Crocker. In terms of the future planning, 
Senator Lugar--I am fully engaged, as is General Petraeus, in 
trying to implement the President's strategy that was announced 
in January. And from this vantage point, I can't speak to the 
interagency process. If there are advantages to being in 
Baghdad, it's having to deal with things in the Iraqi context 
and letting the interagency take care of itself. But the short 
answer is, I'm not aware of these efforts, and my whole focus 
is involved with the implementation of plan A.
    Senator Lugar. Well, apparently you're not involved, at 
least you've testified that you're simply dealing with affairs 
as they are there. So, let me ask you, then, directly: What is 
the most significant concern that you have about a potential 
redeployment of United States Forces in Iraq?
    Ambassador Crocker. Senator Lugar, there are several 
aspects of that that are of concern to me. Broadly speaking, 
they involve the potential impact on the people of Iraq and the 
potential opportunity for the adversaries of the United States 
and of what we are attempting to help the Iraqis do.
    On the first point, I've had the opportunity, since I've 
been here, to get out into the neighborhoods of Baghdad, 
including those that have been severely affected by sectarian 
violence. And I've had the chance to talk to the people in 
those neighborhoods. And I hear the same things fairly 
consistently. One is that, by and large, the Iraqi people have 
some confidence in the Iraqi Army forces--not full confidence, 
concerns over their strength and their abilities still untested 
in the views of many Iraqis--but basically a positive attitude 
toward them. But that is accompanied by, again, a fairly 
consistent message: ``You just got here. There is some return 
to normal life because U.S. forces are here. Stay long enough 
to keep these areas secure so they don't spiral immediately 
back down into the violence they've just been pulled out of 
over the last couple of months because of this surge.''
    And I would be concerned, particularly in the very 
demographically complex area that is Baghdad, still--in spite 
of all the separation that has occurred--still a mixed city, in 
communal terms, that nonconditions-based withdrawals could lead 
to a sharp spike in the--precisely the sectarian violence among 
the population that the surge was intended to diminish, and 
which it has diminished.
    The other area, sir, where I would be quite concerned is 
the space that this could give to our adversaries. And I would 
mention just two in this connection. One, obviously, is al-
Qaeda, where, as you know from statements from the Department 
of Defense and the Multi-National Force, we have had some 
significant successes against al-Qaeda elements. And, clearly, 
the current campaign south of Baghdad and Diyala is affecting 
al-Qaeda in a fairly major way. They continue to direct 
attacks. I believe that the Kirkuk bombing of 3 days ago was--
has all the hallmarks of an al-Qaeda terrorist attack. Clearly, 
if a nonconditions-based set of withdrawals produces more 
violence among Iraqis, it also creates a climate in which al-
Qaeda will find a comfortable operating environment. And that 
clearly is not in our interest.
    It could also establish conditions in which Iran would find 
further room to operate. We've already seen, as you're aware, 
sir, the indications of Iranian involvement through the Quds 
Force and through proxies, such as Lebanon's Hezbollah, as well 
as elements of the Jaysh al-Mahdi. In a scenario in which, 
again, central authority was unable to hold and violence 
increases throughout the country, that would provide more 
running room for Iran and its supporters, as something else 
that was not in our strategic national interest.
    So, those two points are the most important to me.
    Senator Lugar. Ambassador, you have mentioned al-Qaeda 
activities in Kirkuk; likewise, Iranian activities which are 
sometimes alleged all over the country. General Petraeus has 
about 28,500 forces involved in the surge. His own work, out at 
Fort Leavenworth, would indicate a formula that maybe 250,000 
would be required to cover the country of Iraq. My question, I 
suppose, simply, is: How can the surge be successful with 
28,500? And, specifically, what does happen in all the rest of 
Iraq that is not Baghdad, Diyala, Anbar, or one of those areas 
where we have not increased the forces dedicated to population 
security or combating opposition elements?
    Ambassador Crocker. Sir, if--it's a complex question. In 
some areas, we've seen some significant improvements. One of 
them, obviously, is Al Anbar. Another is the northern province 
of Ninawa. I was there, yesterday, talking to both our 
Provincial Reconstruction Team members and members of the 
Multi-National Forces. Because of an improvement of 
conditions--in Mosul, in particular, and Ninawa, generally--
General Petraeus has been able to redeploy forces from that 
area, elsewhere.
    So, I think this is a process and a situation that's going 
to require a lot of hard analysis and agility on our part, in 
coordination with the Iraqi Government, at both national and 
provincial levels, to determine where their forces are gaining 
the confidence, the experience, and the trust of communities to 
be able to hold, without us present in large force, and where 
conditions have simply moved in a direction that supports these 
kinds of shifts.
    But, clearly, as we look at Iraq now, we're not looking at 
a situation where, even under current circumstances, we need to 
be everywhere at once. We don't. We just have to be smart 
enough to be in the places where it counts.
    Senator Lugar. Thank you very much.
    The Chairman. Senator Kerry. We're going to 5-minute 
rounds, and--in light of the delay. That's what we're doing. 
It's the prerogative of--I gave the Senator 10, but we're--all 
started off at 10, John, but we've run out of time. We're going 
to have votes at 12 o'clock.
    Senator Kerry. Mr. Ambassador, thank you. It's good to see 
you for the second time today. I was your next questioner, over 
at the Pentagon a little while ago, and we got interrupted 
there, so I'm glad to be able to pick up here. And I will 
separate, certainly, what was appropriate to that briefing to 
this one.
    When I chaired your--nominated--your confirmation hearing, 
you said, at that time, that you believed, as the President and 
the Vice President and the Secretary of State and all of our 
generals said, that there is no military solution, there is 
only a political solution. Do you still believe that?
    Ambassador Crocker. Absolutely, sir, no question.
    Senator Kerry. And so, what we've achieved, militarily in 
the last days, would have to be described as tactical 
successes. Is that not correct?
    Ambassador Crocker. I think that is a very accurate 
description.
    Senator Kerry. And one of those tactical successes in Al 
Anbar, which has been much referred to, publicly and otherwise, 
is that the tribal chiefs have joined with us in an effort to 
try to deal with al-Qaeda; correct?
    Ambassador Crocker. Yes, sir.
    Senator Kerry. But they are, essentially, in Al Anbar, 
almost exclusively Sunni who are acting to protect their own 
interests, because al-Qaeda was killing their villagers and 
their sons and daughters, raping them, correct? So, the Al 
Anbar success has to be separated from the fundamental conflict 
of Shia and Sunni, the fundamental civil strife that our troops 
are caught in the middle of in other parts of the country, 
particularly Baghdad and its surrounding area. Is that correct?
    Ambassador Crocker. There, I'd make a slight distinction, 
which is to say that each part of this country has to be 
understood and dealt with in its own terms. Al Anbar, as you 
correctly point out, is almost entirely Sunni and almost 
entirely tribal. A province like Diyala has a mixed population, 
both Sunni and Shia.
    Senator Kerry. Correct.
    Ambassador Crocker. And that has to be taken into account. 
But in Diyala we have seen a similar phenomenon, where 
significant elements of a population that has been hostile to 
us are now prepared to work with us. It's more complex, because 
we've got to be very careful that this is managed in a way that 
does create or renew sectarian tensions. But the same desire to 
say, ``We don't want to have these guys anywhere near us,'' is 
at play in Diyala and other provinces.
    Senator Kerry. Well, let me follow up on that, because the 
stated purpose, by the President, of the escalation of our 
forces--on a temporary basis, I emphasize, and he did--was to 
provide the breathing space for the leadership of Iraq to make 
fundamental political decisions; i.e., compromise. The Al 
Anbar--separating Al Anbar there, because of its, sort of, 
uniqueness, there's been almost zero political compromise 
whatsoever on any of the major benchmarks and fundamentals. And 
your testimony earlier today was that, essentially, you think 
the benchmarks aren't as important as the process itself. So, 
in a way, the goal posts are now moving a little bit.
    And my question to you is: If there is no military 
solution, and the process is important, but the fundamental 
conflict and killing is taking place because the stakeholders 
are battling between each other for the future of Iraq, 
essentially, and for their status in it. If there is no 
political settlement, how can the process become more 
important? In the absence of that political settlement, our 
troops are going to remain in the same trap they're in today, 
with, as Senator Lugar said, inadequate people to do the job, 
and the ability of al-Qaeda and others to use our presence to 
continue to be the magnet for terrorism and for jihadists and 
for naysayers and opponents and so forth. So, where do we go, 
in looking for that political compromise, if you're moving the 
goal posts, at this point in time? And what are--what is--what 
do Americans have to look forward to, in terms of a real 
resolution, since there can only be a political settlement of 
this conflict?
    Ambassador Crocker. Senator Kerry, I'll repeat to you here 
what I believe I said when you chaired my confirmation hearing, 
which is: As long as it's my privilege to serve as the American 
Ambassador to Iraq, I will give you and the American people my 
best assessment as to what ground truth and ground reality 
looks like. So, I'm certainly not moving any goal posts. What 
is the case is I've been here now for about 4 months, I've had 
time to get in on the ground, to spend as much time as I can 
outside the Green Zone, to try to understand the complexity of 
what is going on here. And what that tells me is there are a 
lot of processes at work--some of them positive, some of them 
negative. A positive process is the one that we have seen in Al 
Anbar. We didn't create that. The central government didn't 
create it. It started among Anbaris. I think we have done the 
right thing, in coordination with the central government, to 
try to develop and strengthen that process and ensure that it 
is linked to the central government to avoid the kinds of 
suspicions that Chairman Biden mentioned a little bit ago.
    Now, that is a phenomenon that, when I appeared before you 
in February, we could not have begun to foresee or predict. But 
it has developed, and it's developed in a fairly positive way. 
These are the kinds of things I think we've got to have the 
agility and the imagination and the people on the ground, both 
military and civilian, in the form of our Provincial 
Reconstruction Teams in Al Anbar, to identify and then take 
advantage----
    Senator Kerry. Right, but I'm not talking about Al Anbar, 
Ambassador. I'm trying to direct your attention to the rest of 
the fundamental conflict that is different from an Al Anbar. I 
mean, Al Anbar is not the model for the resolution of the 
Muqtada al-Sadr problem, who is modeling, now, his 
organizational effort on Hamas and Hezbollah. It's not the 
model for the resolution of the militia conflict between Shia 
and Sunni, et cetera, nor even the jockeying of political 
players between the rejectionists in the Sunni population and 
the Shia, who have different interests. So, I'm really trying 
to focus you on that.
    Ambassador Crocker. I agree, Sir; Al Anbar is Al Anbar. 
But, you know, there are similar phenomena repeated around the 
country. At the national level, the process I referred to was 
the effort that the four senior officials in this country are 
exerting to come together in an established, regularized forum 
to deal with differences among them--the Sunnis, Shia, and 
Kurds. That has, in the--at the national level, those who need 
to come to terms on a national basis. So, that's one process. 
What's going on in Diyala is another process. What's happening 
in the south--and the south, too, is not a monolith. You know, 
very different conditions, as you rightly suggest. What does 
Muqtada al-Sadr intend? And how are parties of a different 
persuasion, and the government itself, dealing with that 
particular challenge? And how can we help? In the south, Jaysh 
al-Mahdi has received several significant setbacks in places 
like An Nasiriyah and Ad Diwaniyah--in part, through coalition 
intervention, but also through Iraqi Security Forces standing 
up and dealing with that particular challenge.
    So, again, I am not trying to gild any lilies here, and I'm 
certainly not trying to oversimplify a highly complex process, 
but there are opportunities in that complexity. We just have to 
be, I think, aware enough and quick enough to see them and turn 
them to the advantage of the Iraqi Government and people.
    Senator Kerry. Mr. Ambassador, thank you. My time is up, 
and I need to go vote in Finance. But we're grateful to you--
and I didn't have a chance to extent that to General Petraeus--
but we're grateful to you, and all of the people serving over 
there, for what you're doing for your country. And we want you 
to be safe.
    The Chairman. Thank you, Senator.
    Senator Hagel.
    Senator Hagel. Ambassador Crocker, I would--like all my 
colleagues here in the Congress, add my thanks to you and your 
colleagues who are serving in Iraq. We are grateful for that 
service. We may have differences of opinion on policy, but we 
acknowledge your service, and all of your colleagues' service, 
and we are grateful for that service.
    I have, as all my colleagues do, limited time, and I wanted 
to begin with acknowledging what the State Department noted 
this week, in that our Government would be engaging Iran once 
again. And if we have time to get to that, I would like a brief 
comment on that, as to--When will that occur? And where will 
that occur? What do we hope to accomplish?
    But let's stay focused, for the present time, on the 
questioning here this morning.
    One of the points that you made, Ambassador, when you 
opened this conference, a statement--and I'm paraphrasing, but 
I believe it's pretty accurate--you said, after a year away 
from Iraq, you were struck by the damage that had been done in 
Iraq mainly by sectarian violence. Now, that is, in some 
conflict with a number of senior administration officials--in 
fact, including the President, who has said, over and over, 
that Iraq is the forefront, the battleground, against al-Qaeda, 
that al-Qaeda is the central element of violence and 
destabilization in Iraq. Now, of course, our National 
Intelligence Estimates of our 16 intelligence agencies have 
said that that's not true, either. But I lay that out as a 
preface to a couple of questions that I have coming your way.
    Senator Lugar made an interesting observation, and he's 
correct in this, as Senator Lugar normally is correct on these 
things, and that is that the counterinsurgency manual, that 
General Petraeus actually wrote, lays out a formula for force 
structure, essentially matching the force structure with the 
mission. And, unfortunately, we have put our troops in a 
situation where they are woefully overmatched with a mission, 
because they do not have even near the numbers of troops that 
General Petraeus actually, himself, wrote in his 
counterinsurgency manual, in order to do the job. So, we're 
putting our troops in a terrible position, overburdening them 
with an almost impossible task.
    And I noted--and I would like you to respond to this 
question and a second question--that the Prime Minister of Iraq 
said, this week, that--I'm paraphrasing again--that Iraq was 
capable and ready to take over the security responsibilities of 
Iraq at any time, I believe he said. In light of what you have 
just told us, the last hour, that it seems to me, at least your 
interpretation, is in some conflict with what the Prime 
Minister's analysis of his own forces are--and that's one 
question, Ambassador, I'd like you--to have you respond to.
    The second is, we hear an awful lot about--and you have 
said it--we have to buy time. We have to buy time. We need more 
time. We understand that. But here are the set of questions. We 
buy time for what? For a political reconciliation process that 
is not occurring, that is not working. There's not even a 
political accommodation as the prelude to political 
reconciliation that we're making progress on. We talked about 
some of the successes in Iraq, and we have had some. I was 
there, as you know--appreciated your time--6 weeks ago. You 
just mentioned the south. I had two very informed individuals, 
who you met with, who were over there for a few days last week, 
tell me that those four southern provinces are gone, that the 
Shia militia are in charge. Now, I don't know that's an 
overstatement or not, but you might want to comment on that.
    So, I'm a bit puzzled, because if, in fact, we're buying 
time, I think the question needs to be addressed, We're buying 
time for what? How long is enough time? We're in our fifth 
year, and we still see no political reconciliation occurring. 
Actually, I think we're going backward. So, if you could focus 
on those two questions that I've noted--one, buying time, for 
how long, and for what; and, second, your comment on the Prime 
Minister's statement this week that the Iraqi forces are ready 
and prepared to take responsibility for security in Iraq at any 
time.
    And, thank you.
    Ambassador Crocker. Thank you, Senator Hagel.
    Buying time for what, and how much time do we have to buy, 
is a critical question. And, again, not to key up--not to steal 
your time, but the answer is complex, because this is a complex 
situation.
    You mentioned the south. Al Basrah, Iraq's second-largest 
city, and the provincial center for most of Iraq's oil 
resources, has been very, very unstable, with a high level of 
militia activity. What the Iraqi Government has done over the 
last few weeks is to take a couple of tested commanders--one 
army, one police--and send them down to Al Basrah with the 
instruction to get the city under control. It is a tall order, 
but these are officers who, by all accounts, have the 
background and capability to do this sort of thing.
    Now, I've talked to them both, and they're looking for 
resources. They both need more forces than they've got--forces 
that would normally be assigned down to Al Basrah are up--Iraqi 
forces--are up as part of the Baghdad security plan. So, 
they're working out their own plan for Al Basrah. They've got 
to resource it, and then they've got to implement it.
    It's going to be hard. It'll take time. I can't predict to 
you what the outcome will be. But here we have a case of a 
government recognizing it's got a militia problem in its 
second-largest city, and taking some steps to deal with it, and 
I find that encouraging, as far as it goes.
    Elsewhere, again, the situation is intensely complicated in 
some of Baghdad's neighborhoods, where the introduction of our 
forces has made a huge difference. And I've seen it for myself, 
in places like West Rashid, which, just at the time you were 
here, sir, was a place where neither one of us would have 
wanted to set foot in--well, you can do that now. I did it on 
Saturday. And you can do it, because our forces are there. They 
can't stay there forever. I mean, that much is clear. But I 
certainly hope that they can stay there long enough for Iraqi 
Security Forces to be available in the numbers and with the 
training and the equipment and the reliability to do that job 
of protecting the Iraqi people themselves. So, that would be 
another instance of buying time.
    The third point, sir, is, I think, the national point. How 
much time is necessary for an Iraqi Central Government to 
effectively function as one? As you know--you were just out 
here--they are having, you know, significant difficulties. I--
as I said, I've been encouraged that they are able at least to 
come together and thrash out these difficulties, face to face. 
They are going to need more time, because, again, in the 
climate that has been created, Saddam plus the sectarian 
violence, it's pretty hard to make sweeping compromises, even 
if you, as a leader, are so inclined, because you have got a 
constituency out there that is very badly scarred and very 
badly afraid of what the consequences of those kinds of 
compromises can be.
    So, there's got to be time to build, again, that minimum 
level of trust that will let this country move forward.
    Senator Hagel. Thank you.
    The Chairman. Thank you very much.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    First, I just want to raise a note of caution about this 
discussion about Anbar province. The first, of course, is the 
one that Senator Kerry so effectively raised, is the 
applicability of the lessons, Ambassador, of Anbar to other 
parts of Iraq. That's a very serious question which we have to 
address. The second is, I'm not so sure about Anbar itself. We 
have been subjected to so much hype in the course of this war 
that I would just urge you and the administration and my 
colleagues to not be so sure that everything will continue to 
be rosy in that region. The fact is that when I was in 
Fallujah--Camp Fallujah in 2005, there was a very rosy scenario 
presented after the battle of Fallujah. A year later, when I 
was in the same place, it didn't sound so good. Now, in 2007, 
it sounds better.
    But for people to start suggesting that this is somehow a 
result the surge or somehow, simply because they're now on our 
side, they're our buddies now, I think we've heard enough 
things in this war, I would caution my colleagues.
    I hope it is true. I hope those are the long-term 
consequences for that region. But I think once al-Qaeda is, in 
some way, minimized, our presence there may become the greatest 
focus of the Sunnis, who do not like it that we are there. So, 
I would urge everyone to not be so sure that Al Anbar is taken 
care of, any more than Basrah was taken care of when everybody 
thought that was done, or Hillah province, where I was taken, 
because that's a safe place. The fact is, these places come and 
go. And if we are so naive as to think that, sort of, we're 
done with a place, we haven't learned the lessons that caused 
us to make the mistake in the first place, of invading a 
civilization that, frankly, is extremely complex. That applies 
to Anbar, as well.
    On a different matter, Ambassador, the interim assessment 
report, released last week, states, ``Left on their own, many 
ISF units still tend to gravitate to old habits of sectarianism 
when applying the law.'' Indeed, there have been reports in a 
number of media outlets, of ISF complicity in attacks on U.S. 
forces. Can you discuss with us the extent to which members of 
the ISF are participating in sectarian violence?
    Ambassador Crocker. As the report notes, there are problems 
of sectarianism within the Iraqi Security Forces, primarily in 
the Iraqi police, and especially the Iraqi national police, 
less so, as far as I can determine, in the Iraqi Army, although 
it does exist there, too.
    This is a major problem, Senator. And, again, one sees it 
in different parts of Baghdad. I have discussed, before, the 
sense I get from people out there, that they're really counting 
on U.S. forces. They're the ones who secure a particular 
neighborhood. They feel that their army is--has got the right 
orientation and intention, they're less sure of the 
capabilities.
    When one asks about the police, a lot of people I've talked 
to, and our colleagues have talked to, have very serious 
concerns, because they have been involved in sectarian violence 
themselves. This is something that the Iraqi Government is 
aware of. It has taken some actions. Clearly, it's going to 
have to take more actions if there is to be an Iraqi police 
that truly is involved in the protection of its--of the Iraqi 
people, and is perceived as such by those people.
    Senator Feingold. Well, what sort of action----
    Ambassador Crocker. Sir, I'd just make one comment on Al 
Anbar. Sorry.
    Senator Feingold. Go ahead. Well, I was just going to ask, 
what actions have been taken----
    Ambassador Crocker. I wanted to make one----
    Senator Feingold. I'm sorry.
    Ambassador Crocker. There have been arrests of police 
officers--some senior, some junior. Whole units have gone back 
in for retraining. There are efforts now to monitor the 
performance and the orientation, the actions, of police units. 
But, again, I would not want to suggest that this is a problem 
that, by any means, has been fixed. It is a problem, and it's 
going to need a lot more applied attention.
    Senator Feingold. And, please, your comment on Anbar.
    Ambassador Crocker. Yes, sir. I certainly wouldn't want 
you, or any of the other members, to think that I was going 
beyond the current situation in Al Anbar to predict a rosy 
future for Al Anbar or anywhere else. I, too, have seen these 
evolutions. Al Anbar is in a pretty good place right now. And I 
think the challenge that the Iraqi Government has, and we, by 
extension, have in support of the Iraqi Government, is to try 
to solidify that. And I think the best way that can be done is 
to try to establish linkages between the Anbaris who have 
signed up for duty and the central government, so they feel 
that they are a part of the system, they're getting a regular 
wage, they've got a better future for themselves, and prospects 
of a better future for their kids.
    Does that mean it's all going to come right from Al Anbar? 
Sir, I have no idea. But I think what we have to do is try to 
work a pretty positive development now, which, as you point 
out, we didn't create--that happened. We need to try to develop 
it in a way that is sustainable.
    Senator Feingold. Thank you, Mr. Ambassador.
    The Chairman. Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman.
    Mr. Ambassador, thank you. Thank you for your service. And 
I appreciate your reflections of the complexity of what we're 
dealing with in Iraq in various regions.
    I just have to make one note of--about Anbar, because I 
would hope that the public would understand that, you know, 
this is not about hype, and this is not something coming from 
the administration sending a message. I think you're right 
about the complexity, about trying to establish linkages so 
that there's long-term success. But, when I was in Anbar, in 
late April of this year, we had troops there from Minnesota 
National Guard. They're--two of the 136th Combined Arms 
Battalion. And they told me the story of a bombing in 
Habiniyah, in which 80 Iraqis were either killed or wounded, 
and it was our troops that were then giving blood. There were 
no American casualties. And they told me the story of, the next 
day, the local sheikh and the mayor coming in and identifying 
al-Qaeda operatives and saying, ``We want to work with you,'' 
and--you know, so they were telling me that, for them, it was a 
turnaround. It had been the Wild West 6 months ago. And I think 
the challenge is long term. And I think it's fair commentary of 
my colleague from Wisconsin. But, clearly, the success is real. 
And if that can become a model to beyond Anbar, I think we'd 
all be well served. But I appreciate your understanding that we 
have to have linkages, long term.
    And, if I can, just one other comment for my colleague from 
Nebraska. And I'm sure he wasn't intending this, but I almost 
got a sense from his--the preface to his question, that somehow 
discounting the al-Qaeda threat and that sectarian violence is 
the key to, you know, all the fear and everything we're dealing 
with in Iraq. And I'm sure that's not the case. If anything, 
from what I heard from you this morning and today, what al-
Qaeda does is, as you said, operates on the fault line, and 
that their attacks are intended to--is it correct that their 
attacks are intended to exacerbate the sectarian violence? Is 
that part of their plan? Is that part of what you're seeing?
    Ambassador Crocker. Yes, sir; that is certainly my 
assessment. In the 4 months I've been here, I have seen attacks 
from al-Qaeda that have been aimed at virtually every community 
in Iraq. They have targeted Sunnis, they have targeted Shia, 
they have targeted Arabs, Turkmen, Kurds, and they have 
targeted coalition forces, as well as the symbols of the Muslim 
faith. Al-Qaeda was the entity that attacked the Baghdad 
bridges, bringing one main bridge down, and damaging others. 
And it was an al-Qaeda operative who got into the Council of 
Representatives and detonated his suicide vest there as a 
symbolic strike at an institution of the new state.
    So, they are working, I think, every avenue of attack they 
possibly can, in a very bloody fashion. And, again, I certainly 
don't intend to paint a rosy picture out of something that 
brutal. I think it is worth noting that, thus far, they have 
had fairly limited success, as far as I can see, in actually 
reigniting that sectarian violence.
    Senator Coleman. Let me talk about, if I can--again, in the 
time that I have, Ambassador--just about shutting down Anbar 
and moving to the diplomatic side.
    One thing that frustrates me is that, for the neighbors in 
the region, for--you know, for Mubarak, in Egypt, al-Qaeda is a 
threat to him; Iran and the extremists that they support are a 
threat to him; the same thing with Abdullah, in Jordan; the 
same thing with the House of Saud. The threats to their 
existence are al-Qaeda and the forces they support, as well as 
the extremists that the Iranians support.
    What is it that--and you've--we also know, and as you 
indicated earlier, a lot of the flow of foreign fighters come 
from these countries, and they come through Syria into Iraq. 
So, it's a two-part question, because I know Secretary Gates 
and Secretary Rice will be going into the region--what is it 
that our allies, our friends, who are equally endangered by the 
strength of an al-Qaeda and the strengths of Iran--what is it 
that they're not doing that they can do? What is it that we 
have to do to get them to be more involved? And then, the third 
part of that is, can they be helpful in shutting off the flow 
of al-Qaeda and these, you know, terrorists, coming in through 
Syria? Is there something that they can be doing, they're not 
doing? And what is it that we have to get their--how do we make 
that happen?
    Ambassador Crocker. Senator, sitting, as I am, in Baghdad, 
my perspective on that broad regional question is a little bit 
limited, but it is clearly something that is very important to 
us here. I may not have full visibility on everything that's 
being done, but I would point to a couple of things.
    One is the neighbors conference mechanism that I mentioned. 
This is an opportunity to get all of Iraq's neighbors engaged 
on issues like border security. And a working group on border 
security will be convening at the beginning of August in 
Damascus, which is a pretty good place to do it, given the 
involvement of Syria in the flow-through of foreign fighters.
    It's an opportunity to impress again, just the points you 
made, that the enemy we're fighting in Iraq--al-Qaeda--aims at 
the overthrow of each one of those regimes, and they have all 
suffered losses among their citizens from al-Qaeda attacks. So, 
they have got common cause here, and they need to move forward 
in that way.
    I know we've had discussions in regional capitals about the 
importance of these governments, given this is a common enemy, 
of taking every step they can to ensure that their young men 
don't make this particular trip up to Damascus and then across 
into Iraq. I think we're just going to have to keep at them, 
both collectively, in a regional context, through regional 
diplomacy, and bilaterally.
    Senator Coleman. Thank you, Mr. Ambassador.
    The Chairman. Thank you very much.
    Senator Coleman. Mr. Chairman.
    The Chairman. Senator Boxer.
    Senator Boxer. Thanks so much, Mr. Chairman. And thanks for 
your leadership on continuing to push for a political solution, 
which I think makes eminent sense.
    And, before Senator Hagel leaves, I really have a 
rhetorical question I'm going to ask, which doesn't require an 
answer. It's really a way of expressing my own frustration.
    As Senator Hagel has pointed out--and, I think, very 
straightforwardly--here you have an Iraqi leader who says to 
the Americans, ``You can go home now. We're fine. Don't stay 
here on our account.'' So, I guess the question--the rhetorical 
question I have is: How many Americans have to die while we're 
buying time for an Iraqi Government whose leader says we don't 
need to be there?
    And so, to answer my own question--it's not a single one 
should have to die for that.
    And, no--and I hope the people in the audience will not 
respond to this, one way or the other. The point is, there's a 
deep feeling of frustration and outrage in this country as we 
keep on pouring dollar after dollar, and life after life, into 
a place where the people say they don't really want us there.
    Now, al-Qaeda is a serious problem, sir. And, by the way, 
thank you so much for your sacrifice and what you're doing for 
your country. I can't thank you enough for it. But the bottom 
line is, 53 Senators, a majority of the Senate, voted to change 
this mission, because we know al-Qaeda's there. They're 15 
percent of the problem, according to the Bush administration. 
And we're saying, ``Get our troops out of the middle of a civil 
war, where 85 percent of the problem is coming from. And, yes, 
redeploy them out, so they can be a force to act quickly to go 
after al-Qaeda.''
    And I just have another question, a real question for you, 
that deals with one of the comments that you made, and that is 
that you, kind of, put aside the benchmarks, really, basically 
didn't think they were important. As a matter of fact, this 
past Saturday, sir, you said, ``I think electricity is more 
important to the average Iraqi than all 18 benchmarks rolled 
into one.''
    So, I decided to look at what's happening on the 
electricity front. May 16, for the week of May 9-15--and this 
is State Department report--national electricity supply was 2 
percent below the period in 2006. May 23, national electricity 
supply was 11 percent below the same period in 2006. May 30, 
national electricity supply was 7 percent below the same period 
in 2006. June 6, below the same period in 2006 by 3 percent. 
June 13, 8 percent below the same period in 2006. June 20, it 
was unchanged from the same period. June 27, 7 percent below. 
June--July 4, 6 percent below. July 11, 4 percent below.
    So, I don't understand, if you're trying to tell us how 
much progress is being made here, and you dismiss the 
benchmarks, and then you tell us electricity--aren't we failing 
there, as well?
    Ambassador Crocker. Senator, I made that comment after 
talking to a number of Iraqis in a store in West Rashid, 
Baghdad, that didn't have any electricity. And I certainly, in 
that comment, was not painting a rosy picture about the 
availability of electricity in West Rashid or anywhere else in 
Baghdad. The point I was making is that, for those Iraqis, 
getting a reliable source of power was a whole lot more 
important than passage of a revenue-sharing bill by the Council 
of Representatives.
    The hard fact is that the availability of electricity to 
the average citizen in Baghdad is still at a very low level, an 
hour or two a day. It's better in much of the rest of the 
country, but that is small comfort if you're sitting in Baghdad 
in the middle of summer.
    There are a lot of reasons for it, and the main reasons 
have to do with continued attacks by insurgents against 
electrical transmission lines and against fuel pipelines that 
provide the energy source that you need to generate 
electricity. It's one more in a long series of hard problems, 
but it's a very real problem for many, many Iraqis.
    Senator Boxer. Sir, I hear you.
    Ambassador Crocker. And, if I could----
    Senator Boxer. I hear you. My point--you're, sort of, 
missing my point, if I might. And my--because I'm running out 
of time here--the point that I'm trying to make is, you said--
you kind of pushed aside the benchmarks. Now, a lot of people 
have worked on these benchmarks--Republicans, Democrats, the 
White House, everybody--you set them aside, and you were making 
a good, I think, point that the daily lives of the Iraqis are 
not going well. I'm echoing that point. And the fact is, the 
estimates that I read to you come from all over the country--
all over the country. So, my point is, not meeting the 
benchmarks--the Iraqi Government's not meeting the benchmarks. 
The electricity that you say is so important is worse, not 
better. The Iraqi leader says, ``We can handle this.'' And, in 
my last trip to Iraq, I have to say, General Petraeus, at that 
time, was in charge of training the troops, he said he thought 
the troops were very well trained, he was very optimistic about 
them. What happened to, ``If we stand up--if they stand up, we 
stand down,'' all this changes, there's a moving target--the 
bottom line here, sir, is, I know you have a very difficult 
assignment. I want to be helpful to you.
    I guess, in closing, Mr. Chairman, I'd like to express the 
deepest sense of frustration from my State that people feel we 
have given blood, we have given dollars, we have given 
patience, we have given everything, and people are at the end 
of their patience.
    And, sir, I hope you will continue your work. I hope you 
will tell us the reality on the ground, and not paint rosy 
scenarios in September and say, ``Well, none of the benchmarks 
are met, we can't deliver electricity, but we're making 
progress,'' because that's only going to prolong the killing.
    Thank you.
    The Chairman. Senator Voinovich.
    Senator Voinovich. Thank you, Mr. Chairman.
    First of all, I'd like to submit, for the record, the 
letter that I sent to the President, along with ``The Way 
Forward,'' that outlines a program to urge him to develop a 
comprehensive plan for our country's gradual military 
disengagement from Iraq in a way that will protect our national 
security interests and prevent chaos in the region.
    The Chairman. Without objection, it will be placed in the 
record.
    Senator Voinovich. It may seem contradictory to some, Mr. 
Chairman, but I believe we can accomplish more in Iraq by 
gradually and responsibly reducing our forces and focusing on a 
robust strategy of international cooperation and coordinated 
foreign aid.
    And I agree with our Ambassador, and I thank him very much 
for his service to our country, that we cannot abandon Iraq in 
chaos, but we must start to face reality and begin a 
transition, where the Iraq Government and its neighbors play a 
larger role in stabilizing the country. And I think that you've 
got to make sure that they know it's inevitable that the United 
States is going to disengage and that our commitment is not 
open-ended. And what he does now, and in the next several 
months, is going to have a great deal to do with the kind of a 
reaction that we're going to have to the recommendations that 
you and General Petraeus are going to be making to the 
Congress. It doesn't seem that he understands the urgency of 
the situation, that he's not taking advantage of our presence, 
and he should be. He ought to get on with the constitution, he 
ought to get on with the oil. And I read, in The Economist, 
where the they met at Sharm el-Sheikh. You made reference to 
it. The country's talking about oil and security and the 
refugee problem. And what I understand is, he wasn't 
enthusiastic about it. And he ought to understand, again, that 
he ought to be reaching out to these people in his executive 
committee to get them to help him deal with the situation that 
he has in his country.
    In addition to that, we met earlier this week, several of 
us, with Secretary Moon, Secretary General Moon, of the United 
Nations, and I urged him, ``It's urgent for them to get 
involved. Is there a sense of urgency? What are you doing to 
let them know that this time is running out? Time is running 
out. What are you doing?''
    Ambassador Crocker. Senator, that is a point we have made 
to the Prime Minister, to the rest of the Iraqi leadership, 
that we are buying time. We're buying time, at the cost of the 
lives of our soldiers and of Iraqi soldiers, and they need to 
honor that sacrifice by moving the country forward.
    I don't think the Prime Minister fails to understand the 
challenge he has. This is hard work. We've put a lot of time 
here, me and all of my colleagues, in working with him to 
achieve these benchmarks. It is frustrating to us when the 
progress is as slow as it has been in many areas. It's 
frustrating to them. They've got to keep at it, and we've got 
to keep pushing. And we will do that.
    And with respect to the United Nations, Senator, I think 
their engagement is very important. And I applaud your 
encouragement of further efforts on their part to make a 
difference out here.
    Senator Voinovich. Well, I want to thank you. I've been 
informed that if I don't----
    The Chairman. Well, actually, I was mistaken. They're going 
to leave the--they're going to have the 5-minute grace period, 
so you still have a minute and a half to go.
    Senator Voinovich. Well, there's got to be some real 
evidence that action's taking place there. And everything you 
can do to convey to Mr. Malaki and his executive committee, to 
the other players in the region, that the American people's 
patience is running out. And you may assume that some of the 
things you talked about are going to continue, but the fact of 
the matter is, I don't think that's what the case is going to 
be. And if I were, you know, in the position of the President 
or Secretary Bond, I'd put them all in a room and say, ``You 
know what? We're on our way out of here. Take advantage of the 
opportunity that you have. You all have a symbiotic 
relationship to work together so this thing doesn't blow. And, 
if it does, then you are going to have some very, very serious 
problems. So, help us. Help us, so we can stabilize the area, 
and we'll be willing to provide humanitarian help, we'll be--
we're going to stay in the region, but we have to disengage. 
It's inevitable. Take advantage of this wonderful opportunity 
that you have.''
    The Chairman. Thank you very much, Senator.
    Mr. Ambassador, I want to thank you. I'll make a closing 
comment here, in the next minute or so.
    No. 1, having the United Nations involved on the ground is 
not the same as having the Permanent Five of the Security 
Council take ownership of this problem. I met with them--and 
you may find it of interest--3 weeks, the permanent members. I 
asked what would happen if the President came to them and 
said--called an international conference--not Sharm el-Sheikh--
where they had equal ownership with the United States--equal 
ownership of the problem. They said they would all participate. 
They would call an international conference. If you don't raise 
this up, Mr. Ambassador, you're going to be left there adrift.
    Second point is, with all due respect to everyone who has 
talked about this, you heard from my colleague--we're not 
staying, Mr. Ambassador. We're not staying. You don't have much 
time. And there's not much you can do about it, I know, if 
we're to make--begin to make this the world's problems.
    And the last thing I'd like to say to you, Mr. Ambassador--
I have overwhelmingly high regard for you--you said one thing 
that demonstrates that we have a fundamental disagreement, 
though. You pointed out that you were talking to a group of 
Iraqis and saying that--where there is no electricity--saying 
electricity is more important than an agreement on revenue-
sharing. I would respectfully suggest, if you got an agreement 
on revenue-sharing, that would mean there was genuine political 
progress being made, and accommodations being--going forward 
among the warring factions, and that would mean there would be 
more cooperation in seeing to it that those who are blowing up 
the transmissions lines didn't blow them up.
    So, I really think you guys have it wrong when you put, on 
the back end, the political settlement relating to regionalism, 
you put, on the back end, the constitutional changes, you put, 
on the back end, the importance of the oil agreement. I don't 
know how you get the Sunnis to buy in without them knowing 
they, in fact, have a piece of the oil. I don't know how you 
get the Shia to buy in, unless they're able to have a regional 
government. I don't know how you do that. You may know. I'm 
anxious to hear it later.
    But, bottom line, Mr. Ambassador, you're a very skilled 
diplomat, you're professional, you've been around a long time. 
I promise you, old buddy, forget what Joe Biden said, listen to 
the Republican. We ain't staying. We're not staying. We're not 
staying. Not much time. Political benchmarks better be met, or 
we're in real trouble, because we will have traded a dictator 
for chaos, notwithstanding all your incredible efforts.
    And, with that, Mr. Ambassador, if you'd like to make a 
quick closing comment, the floor is yours, and I'm going to 
have to go leave and vote, and I'll be in touch with you, by 
plain-old telephone, personally, if I can.
    Ambassador Crocker. Thank you, Mr. Chairman. And thanks for 
the opportunity to meet with the committee at this important 
time on this important issue.
    The benchmarks are important. We put an extraordinary 
amount of time and effort--and I do, personally--in pushing, 
pulling, prodding, looking for the deals, trying to drive this 
forward so that benchmarks are met, because they mean 
something, in and of themselves, and they clearly mean 
something, in terms of American support.
    The Chairman. Mr. Ambassador, I'm sorry, I'm going to have 
to go vote. I truly apologize. The time has run out.
    I'd respectfully suggest they would be more inclined to 
meet the benchmarks if the whole world community were pushing 
them. We have so little credibility, I think it's important you 
get the rest of the Permanent Five, equally as hard pushing. 
That may be the way.
    But, at any rate, I'm going to have to end this, Mr. 
Ambassador, and I--with your permission, I'd like to give you a 
personal call, if I may, to follow up what we're talking about.
    Thank you very much. I apologize to everyone for this 
truncated hearing.
    And we are now adjourned.
    [Whereupon, at 12:25 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


  Prepared Statement of Hon. Lisa Murkowski, U.S. Senator From Alaska

    Mr. Ambassador, thank you for taking the time out of your schedule 
to make yourself available to the committee for this hearing. The 
Senate has spent a great number of hours this week discussing where we 
as a nation are in terms of our strategy for Iraq and what kind of 
progress is being achieved. I'm not sure that we resolved anything 
other than that there remains many divergent views on our continued 
military presence in Iraq.
    The interim report issued by the President on July 12 underlines 
what has become a recurring source of frustration for many of us; our 
military is achieving some success on the ground, particularly in Anbar 
province, but political achievements on the part of the Iraqi 
Government have been much slower, if not nonexistent. Iraq's political 
leaders must be able to demonstrate to the Iraqi and American people 
their willingness and ability to set aside sectarian differences to 
make difficult decisions and reach compromises for Iraq as a whole.
    Mr. Ambassador, Senator Sununu and I unfortunately missed you when 
we visited Iraq this past March--our visit occurring just before you 
took up your current post. One of the things that was impressed on me 
during my time there was the need to have a civilian surge to go along 
with the military surge. To make sure that the progress that is 
achieved on the military side in terms of training Iraqi troops and 
policemen, and securing more areas of Baghdad and the rest of Iraq, is 
not undercut by a lack of technocrats to perform activities such as the 
detention and prosecution of those who break the law, or develop the 
financial capability to distribute federal revenues--or even to deliver 
paychecks to the Iraqi troops. These are capabilities that need to be 
in place if the Iraqi Government does enact key pieces of legislation 
such as hydrocarbon revenue distribution, or de-Baathification laws. 
The passage of these laws means nothing if there is no ability to 
implement them. So I urge this administration to ensure we are doing 
our part in those areas that don't get quite as much media attention, 
so that these next steps are in place.
    I want to compliment the ranking member for his work with Senator 
Warner on their amendment to the Department of Defense authorization 
bill. The legislation passed by Congress and signed into law by the 
President in May says that if it is determined in September that the 
benchmarks have not been met, or significant progress has not been made 
in attaining them, the President shall include in his report a 
description of how the United States strategy for Iraq will be revised.
    There are, of course, differing views on how, when, and whether our 
policy toward Iraq should change. While the Senate has not come to any 
agreement on that, the Lugar-Warner amendment rightly suggests that 
consideration for what happens after the September report and testimony 
from yourself and General Patreaus must be taking place now. In my view 
this is not a prejudgment of the September report, but rather ensures 
that the administration is at least putting together a plan B. I whole 
heartedly agree.
    Mr. Ambassador, I have committed to waiting for the September 
report before making a decision on my continued support for the current 
policy. But there are only so many times that the argument, ``give it 
more time'' can be taken seriously when our partner has not 
demonstrated that they are committed to the process as well. Verbal 
commitments are nice; visible action is better.
    It is a frustrating position, as no matter how much we in Congress 
may want the Iraqi Government to succeed, it is basically out of our 
hands. They are the ones that need to make the decisions--to take the 
action. You commented in your testimony that the benchmarks may not be 
the best way to judge whether progress is being made--particularly at 
the provincial level. I agree that if we were to solely look at 
provinces like Anbar, the reports would be more positive, but that 
would leave out the largest population center in Iraq where the 
sectarian strife is most visible. I believe the line goes, as Baghdad 
goes, so goes Iraq.
    We cannot cast their votes for them. It is not our place to 
determine what the best course of action for Iraq is. That is up to the 
Iraqi people and their elected government. But they must know, as the 
President has said on a number of occasions, America's commitment in 
Iraq is not open-ended. The Iraqi Government has between now and 
September to demonstrate that they want the United States as their 
partner.
                                 ______
                                 

  Prepared Statement of Hon. Barack Obama, U.S. Senator From Illinois

    Mr. Chairman, thank you for holding this hearing and for giving us 
an opportunity to gather more information on the situation in Iraq. I 
also appreciate Ambassador Crocker's willingness to provide an update 
on the situation from his perspective.
    We've heard from the administration and from many of our Senate 
colleagues this week that we need to give the President's surge more 
time and that we need to wait to hear the report in September before we 
make a binding decision to redeploy our troops. However, we learned 
last week that the Iraqi political leaders have not met a single 
benchmark that they agreed to in January.
    We don't need to wait for another report. We have seen the results 
of a failed policy in the form of multiple deployments, more sacrifice 
from our military families, and a deepening civil war in Iraq that has 
caught our troops in the middle.
    It is long past time to turn the page in Iraq, where each day we 
see the consequences of fighting a war that should never have been 
authorized and should never have been waged. The single most important 
decision a President or Member of Congress can make is the decision to 
send our troops into harm's way. It is that decision that determines 
the fate of our men and women in uniform, the course of nations, and 
the security of the American people. It is that decision that sets in 
motion consequences that cannot be undone.
    Since this war began, 3,618 Americans have been killed--532 since 
the President ignored the will of the American people and launched his 
surge. Tens of thousands more have been wounded, suffering terrible 
injuries seen and unseen.
    Here is what else we know. We know that the surge is not working, 
that our mission in Iraq must be changed, and that this war must be 
brought to a responsible conclusion.
    We know Iraq's leaders are not resolving their grievances. They are 
not stepping up to their security responsibilities. They are not 
improving the daily lives of Iraqis.
    We know that the war in Iraq costs us $370 million a day and $10 
billion each month. These are resources that could be spent to secure 
our ports and our borders, to invest in jobs and health care, and to 
focus on a resurgent Taliban in Afghanistan and the wider war on 
terrorism.
    We know that because of the war in Iraq, America is no safer than 
it was on
9/11. Al-Qaeda has gained the best recruiting tool it could ask for. 
Tens of thousands of terrorists have been trained and radicalized in 
Iraq. Terrorism is up worldwide. America has fewer friends, and more 
enemies, in the world.
    We know--because of the release of a declassified NIE earlier this 
week--that we continue to face a ``persistent and evolving'' threat 
from al-Qaeda. And last week, a threat assessment concluded that al-
Qaeda is as strong today as it was before
9/11.
    As I said nearly 5 years ago, during the runup to this war, we are 
fighting on the wrong battlefield. The terrorists who attacked us and 
who continue to plot against us are resurgent in the hills between 
Afghanistan and Pakistan. They should have been our focus then. They 
must be our focus now.
    In January, I introduced a plan that would have already started 
bringing our troops home and ending this war, with a goal of removing 
all combat brigades by March 31, 2008. Seventy-nine days ago, President 
Bush vetoed a bipartisan plan that passed both Houses of Congress that 
shared my goal of changing course and ending this war.
    During those 79 days, 266 Americans have died and the situation in 
Iraq has continued to deteriorate.
    We in Congress must take action to change the President's failed 
policy. I was deeply disappointed that some of our colleagues blocked 
an amendment yesterday that would have required a drawdown of our 
forces by the end of April 2008--a date that is consistent with the 
date in the plan I proposed back in January, and a goal shared by the 
bipartisan Iraq Study Group.
    I will continue to push for a new course that gets our troops out 
of harm's way, that changes our military mission to focus on training 
and counterterrorism, that puts real pressure on the Iraqis to resolve 
their grievances, and that urges the robust diplomacy that is so badly 
needed.
    Thank you.
                                 ______
                                 

Responses of Ambassador Ryan Crocker to Questions Submitted by Senator 
                            Russell Feingold

    Question. I would like you to address the displacement of millions 
of Iraqis. I am interested to hear from you about the process in 
assisting Iraqis who are working, or have worked with the U.S. 
Government and are seeking assistance in resettlement to the United 
States. The progress on processing these cases appears to be 
painstakingly slow--would you explain why it is taking so long to 
process these cases? What mechanisms are you putting in place in order 
to process cases more quickly? How are you handling this calamitous 
situation in-country?

    Answer. We have many mechanisms in place to facilitate and expedite 
access to the U.S. Refugee Admissions Program (USRAP) for those Iraqis 
who have been targeted due to their association with the USG and are 
interested in seeking resettlement to the United States, including the 
use of Embassy referrals for Iraqis still in Iraq who have worked 
closely with the USG. To date, Embassy Baghdad has referred over 20 
Iraqi employees and their family members to the USRAP.
    Embassy Baghdad has established a refugee committee to evaluate 
cases brought to their attention by USG personnel. Once the Department 
concurs in accepting the referral, the Embassy works closely with the 
individual to determine where they wish to be processed and passes on 
the information to the appropriate Overseas Processing Entity (OPE). In 
some cases, the USG facilitates entry into a country of first asylum. 
The OPE prioritizes Embassy referrals and works to quickly prepare the 
case for presentation to DHS/USCIS. The Embassy and OPE also keep the 
applicant informed of the timing of DHS/USCIS circuit rides so that 
they can minimize the time spent in the country of first asylum.
    Refugee processing generally takes 4 to 6 months from referral to 
admission in the United States due to the required security checks, a 
face-to-face interview with DHS/USCIS, and medical exams. However, the 
State Department acts expeditiously to refer cases of Iraqi locally 
engaged staff (LES) to the USRAP, to provide emergency shelter in the 
IZ, and facilitate entry to the country of first asylum when needed. 
Assisting the LES and his/her family in arriving to a safe location can 
be completed in only a few days if needed, so that the vast majority of 
the processing time can be spent in a secure location.
    In addition to the processing of Embassy referrals, the USRAP is 
processing thousands of Iraqi asylum seekers in neighboring countries 
referred by UNHCR. Prior to March, the USRAP had two OPE's in the 
region located in Cairo and Istanbul. We now have established two 
additional OPE offices in Damascus and Amman. Additionally, on a 
circuit-ride basis OPE personnel and DHS/USCIS officers travel to 
Lebanon periodically to process UNHCR referrals of Iraqi and other 
refugees.

    Question. The Washington Post reported that you sent a cable to 
Under Secretary Fore making a strong case that we need to do more to 
make it possible for Iraqis employed by our government to come to the 
United States. The cable stated that Iraqis who work with the United 
States ``work under extremely difficult conditions, and are targets for 
violence including murder and kidnapping.'' Senators Smith, Biden, 
Hagel, Lieberman, Leahy, Levin, and Kennedy have introduced 
legislation, which establishes a program to do precisely what you 
called for in the cable. What was Under Secretary Fore's reaction to 
this cable? Will you work with the Congress to establish such a system 
of aiding those who have helped our government?

    Answer. In February of this year, the State Department identified 
the issue of assisting Iraqis who work for the Embassy as a matter of 
urgency. The Department took immediate steps to address the needs of 
those at risk in Iraq because of their association with the U.S. 
Government. The Department asked Congress to expand access for these 
Iraqis to the Special Immigrant Visa (SIV) program, so that more brave 
Iraqis who are making their own contribution to their country are 
eligible for inclusion in this program.
    Secretary Rice set up the interagency task force on Iraqi Refugees 
and Internally Displaced Persons led by Under Secretary Paula 
Dobriansky, which continues to meet regularly. The interagency task 
force has a specific focus to address the humanitarian situation, 
including the needs of those at risk in Iraq because of their 
association with the U.S. Government.
    The interagency task force drafted and cleared the administration's 
legislative proposal to provide a mechanism to lower, in 
``extraordinary circumstances,'' the years of service required for SIV 
eligibility under the Immigration and Nationality Act. Embassy Baghdad 
was consulted often during the drafting process and its 
recommendations, which included the number of years of service required 
for SIV eligibility, were integrated into the administration's SIV 
proposal.
    In April, the Department sent to Capitol Hill the legislative 
proposal as an administration position which allows SIVs for Locally-
Engaged (LE) Staff who have served in ``extraordinary conditions'' as 
determined by the Secretary and have fewer than the minimum years of 
service otherwise required. The Department is now working actively to 
gain support in both the Senate and House to secure the introduction, 
consideration, and passage of the proposal.
    While the Department appreciates the intention of the Refugee 
Crisis in Iraq Act introduced by Senators Kennedy and Smith, we believe 
the administration's SIV proposal is a more comprehensive and practical 
vehicle for addressing the dangers that local employees of the USG 
confront in a manner that will ensure continued effective operation of 
our diplomatic operations in Iraq and of our worldwide administration 
of the SIV program.
    The Department and Embassy Baghdad have communicated to LE Staff 
the processes by which locally employed interpreters and translators 
under Chief of Mission authority can take immediate advantage of the 
Special Immigrant Visa opportunities offered by Public Law 110-36. 
Embassy Baghdad has also acted to accelerate the access of LE Staff to 
the U.S. Refugee Admissions Program.
    The Department and the administration recognize that a solution 
must be secured to assist those LE Staff in extraordinary conditions 
who are serving the American people. We very much appreciate your 
support and interest in this matter as we seek to partner with the Hill 
to implement the legislative changes that are required.

    Question. There is currently a special immigrant visa program for 
Iraqi and Afghan translators. DHS has approved more than 600 petitions 
under this program but less than 40 have been issued. Five hundred 
visas are available under this program over the next 2 years. There are 
reports that Iraqi translators with approved petitions who have 
attempted to travel to Jordan to obtain their visas have been turned 
back to Iraq by Jordanian immigration officials. How many special 
immigrant visas have been issued for Iraqi and Afghan translators this 
year? Why have so few been issued when more than 600 petitions have 
been approved?

  <bullet> What steps is the State Department taking to ensure all the 
        500 visas available this year are utilized?

    Answer. Under previous legislation, only 50 visas were available 
per fiscal year. New legislation was passed in June raising the total 
number of visas available in FY07 to 500 and the total number available 
in FY08 to 500.
    The National Visa Center has received 629 approved Special 
Immigrant Visa petitions (1,442 applicants total, including 
derivatives) for Iraqi or Afghani translators from DHS/CIS. The 
National Visa Center has been able to contact over 500 of these 629 SIV 
applicants in order to begin the document collection process.
    Through the end of June 2007, the Department issued 37 SIVs (along 
with 32 derivative visas issued to dependents) under the previous 
legislation that allocated 50 such visas for FY 2006. These cases pose 
unique challenges because it is difficult to contact the applicants, 
many of whom are deployed with U.S. troops in Iraq. In addition to the 
difficulties contacting the applicants, there are challenges in firmly 
establishing the true identities of some applicants given the various 
naming conventions used in Iraq and the unreliability of civil 
identification documents.
    Over 80 cases are scheduled for August and cases will continue to 
be added as they are ready.
    The Department has sent an additional consular officer to Embassy 
Amman, where most SIV applicants have their visa interview, to assist 
in processing. We have expedited security clearance requests for SIVs 
and our interagency partners have been very responsive. We are also 
working closely with CBP to facilitate the entry of translators and 
their families who do not have an Iraqi ``G'' series passport valid for 
travel.

  <bullet> How many Iraqi translators with approved SIV petitions have 
        been turned back by Jordanian officials? What steps are you 
        taking to ensure this does not happen again?

    Answer. Amman has had two cases of SIV applicants who were turned 
around at the Jordanian border, apparently after trying to enter 
without evidence of an interview, but who were later rescheduled for 
other appointments. At the translators' request, four cases were 
transferred to Damascus for appointments. We are working with the 
appropriate authorities to facilitate entry for SIV applicants into 
Jordan and neighboring countries. The U.S. Embassy in Jordan works 
closely with the GOJ officials to ensure translators can enter Jordan 
for their SIV interviews. The Ambassador recently briefed the GOJ on 
this program and its importance to the USG and access to Jordan for 
these applicants appears to be resolved at this time.
                                 ______
                                 

Responses of Ambassador Ryan Crocker to Questions Submitted by Senator 
                             Lisa Murkowski

    Question. What kind of civilian surge is taking place to match the 
military surge--particularly in the financial and judicial sectors--in 
order to provide a functioning bureaucracy for when the Iraqi 
Government passes legislation such as the hydrocarbon revenue sharing 
bill?

    Answer. The civilian surge is a robust, three-phased plan to 
increase staff at existing Provincial Reconstruction Teams (PRTs), as 
well as create new ones. There will be more than 20 teams in total. 
Many of them will be embedded Provincial Reconstruction Teams (ePRTs), 
which operate side by side with brigade headquarters. They live with 
the soldiers and go everywhere the soldiers go. The mission of PRTs is 
to work with local leaders--whether they be tribal shaykhs, provincial 
governors, mayors, or neighborhood leaders--to build local networks of 
moderates. They also facilitate civilian technical assistance efforts 
among Iraqi provincial and local government officials and the citizens 
they represent to deliver essential services and programs to rebuild 
communities. This surge has consisted of approximately 500 personnel 
across a dozen specializations. PRTs and ePRTS are typically staffed 
with 10-12 experts, led by a senior Department of State Foreign Service 
Officer, that gear their assistance to the needs of their individual 
communities. Three hundred twenty-five positions are filled, with 
another 96 in process. As a result of the civilian surge's success, 
military commanders recently requested four new ePRTs, which we have 
planned with 84 positions.
    One of the primary goals of the PRT initiative is to improve the 
capacity of local and regional Iraqi governments. This complements an 
ongoing effort to develop the capacity of key Iraqi ministries. The 
U.S. Agency for International Development's National Capacity 
Development (NCD) Program has full-time public management advisors in 
nine key institutions, including the Prime Minister's office and the 
Council of Representatives Secretariat. These advisors are helping 
these entities improve their capacity to develop and execute their 
budgets, design personnel policies, and implement procurement 
regulations.
    Oil and electricity are key priority ministries, within which USAID 
focuses on capacity development in public management. Each ministry is 
well advanced in formulating a capacity development plan addressing the 
ministry's needs; a key focus of these plans is improved financial and 
project management. Additionally, over 80 staff from the ministries 
have enrolled in the program's training sessions, receiving training in 
topics such as procurement, budget management, project management, 
strategic planning, and communications and leadership. We have recently 
expanded our efforts to improve Iraqi ministerial capacity by adding 26 
more contractors, 11 of whom are already on the ground and the rest 
will be in place by the end of August.

    Question. I traveled with Senators Sununu, Klobuchar, and 
Whitehouse to Baghdad and Fallujah in mid-March. When we met with now 
former Speaker Mahmoud al-Mashhadani, he mentioned that when 
considering the hydrocarbon revenue distribution law, beyond the 
differences of opinion of the Kurds, Sunnis, and Shiites, the Iraqi 
National Assembly needed time to convince the average Iraqi on the 
street that the plan was truly an Iraqi plan, and not a United States 
plan--and that was part of the delay in considering the bill. Is the 
pressure being put on the Iraqi Government by Congress and the 
administration having a detrimental effect with the Iraqi people on the 
believability of any future legislation enacted by the National 
Assembly?

    Answer. Ever since Iraq nationalized its oil industry in 1960, the 
structure and operation of the Iraqi oil sector has generated strong 
nationalist feelings among the Iraqi public. As a number of articles, 
seminars, and public comments by Iraqi commentators have indicated, 
many Iraqis are very concerned about issues such as the role of foreign 
companies in the oil sector, corruption, and the power of regions to 
direct their own development.
    The Government of Iraq (GOI) and the Kurdistan Regional Government 
(KRG) have been in intensive discussions since last July, and have 
completed drafts of a framework hydrocarbon law and a revenue 
management law, both of which are wholly Iraqi products. Over the last 
3 months, central government representatives have met with a wide range 
of parliamentarians to brief them on the main concepts in the law. The 
GOI and KRG also held a seminar in Dubai in April to broaden the 
discussion of the main points of these laws.
    While these actions are useful initial steps, the Iraqi public 
still does not have a good understanding of what the framework 
hydrocarbon law does and does not do, including provisions on foreign 
investment in the oil and gas sectors. We expect that both the GOI and 
KRG will mount a broader public information campaign to address issues 
of concern once work on the remaining portions of the oil law package 
is complete and approved by the Iraqi Cabinet.
    The United States has made clear publicly and privately the high 
priority we attach to Iraq's passing this legislation. These 
expressions of interest, including encouragement to pass these laws 
this summer, have created the impression within some Iraqi circles that 
the USG is attempting to exert undue influence on the entire process. 
We are sensitive to this perception as we calibrate our efforts to 
encourage the GOI and the KRG to proceed with all due dispatch on 
crafting a durable set of laws recognized as legitimate by the Iraqi 
people to govern the most important sector of Iraq's economy.

    Question. Has the Prime Minister undertaken additional good-will 
generating activities with local sheiks and other Iraqi political 
leaders since his March 13 visit to Anbar province?

    Answer. Prime Minister al-Maliki meets regularly with leaders from 
across Iraq's political spectrum, as well as with local sheiks and 
tribal leaders. For example, during a July visit to Diyala province, 
the Prime Minister met with local leaders to discuss joint efforts to 
expel al-Qaeda from Baquba. He praised local citizens, victims of 
terrorism, and the tribally based Diyala Support Council for their 
efforts in working with Iraqi and coalition forces. In June, the Prime 
Minister received a delegation of tribal and local government leaders 
from Al-Qaim, in Anbar province.
    Recently the Prime Minister formed a committee of senior advisers 
and technical experts to work directly with coalition and Embassy 
representatives on issues relating to Sunni tribal and insurgent group 
outreach. The committee has a mandate to integrate anti-al-Qaeda 
fighters into the Iraqi Security Forces.
    We continue to emphasize the need for outreach by Iraq's leaders, 
including the Prime Minister, to all of Iraq's communities as a 
critical element in building political stability through broad 
participation in a national political process.
                                 ______
                                 

Responses of Ambassador Ryan Crocker to Questions Submitted by Senator 
                              Barack Obama

    Question. The interim report released last week indicates progress 
on all of the first order political priorities has been unsatisfactory.

  <bullet> Given that the Iraqi Parliament is planning to be in recess 
        during the month of August, what expectation do you have that 
        the Parliament will convert the unsatisfactory progress on 
        these priorities into satisfactory progress by the time you 
        submit your report in September?

    Answer. Political progress is a shared responsibility between the 
executive and legislative branches of the Iraqi Government, and is not 
solely the responsibility of the Council of Representatives (COR). The 
Presidency Council and the Prime Minister are all part of the process 
and the weight of progress falls on all of their shoulders. We have 
made clear to the Iraqi political leadership that we attach great 
importance to the resolution of a number of political issues, including 
those laid out as priorities in the July 15 interim report.
    Recent action in the COR indicates there may be forward movement in 
some areas, for example, in legislation connected with defining 
provincial powers, while other legislation remains the subject of 
intense discussion. It is probable that the COR will not complete 
action on all political priorities by the time we submit the September 
report; however, the challenge of enacting legislation involves more 
than securing approval from the COR.
    While progress has not moved as rapidly as we would like, we must 
not diminish the importance of what the COR has accomplished as a 
functioning democratic institution. In a little over a year, the COR 
has passed more than 60 pieces of significant legislation, despite a 
climate of continuing sectarian violence, including an attack on the 
COR parliamentary building that left one parliamentarian dead.
    Finally, while the COR is currently taking a constitutionally 
mandated recess, that does not preclude members of the political blocs 
or committees from meeting to negotiate the specifics of pending 
legislation in anticipation of the COR returning to session on 
September 4.

    Question. Press reports indicate you may be meeting with your 
Iranian interlocutors again sometime in the next 10 days.

  <bullet> What is on the agenda for these discussions?
  <bullet> What do you want to accomplish during the discussions?

    Answer. On July 24, the Iraqi Government hosted the second round of 
U.S.-Iranian-Iraqi discussions focused on security and stability in 
Iraq. Prime Minister Nuri al-Maliki welcomed us and the session was 
chaired by Foreign Minister Hoshyar al-Zebari and National Security 
Advisor Mowaffak al-Rubaie. As was the case in the May meeting, I 
headed the American team and my Iranian counterpart, Ambassador Kazemi 
Qomi, headed the Iranian team.
    As was also the case in May, the sole subject on the agenda for 
this meeting was security in Iraq. There was no broader agenda.
    All parties agreed in principal that it is in the best interests of 
all parties to see a democratic and stable Iraq, but the challenge 
remains applying those principles on the ground.
    We expressed concerns, as we have in the past, over the Iranians 
arming and training violent militia elements. We made clear in our 
talks that in the 2 months since our last meeting we have not seen a 
reduction in militia-related activities attributed to Iranian support, 
but rather an increase. The presence and lethal activities of Islamic 
Revolutionary Guard Corps--Quds Force (IRGC-QF) personnel in Iraq and 
their provision of lethal support--in the form of weapons, training, 
funding, and guidance--to illegal militias who target and kill 
coalition and Iraqi Forces, as well as innocent Iraqi civilians, 
contradicts the Iranian Government's stated policy of supporting the 
Iraqi Government.
    We made clear to the Iranians that their efforts will be measured 
by the security conditions on the ground, not by stated principles or 
by promises. The goal of these discussions is not to schedule more 
discussions but rather to find a solution to the issue of Iraqi 
security. To that end we discussed the formation of a security 
subcommittee that would address at the expert or technical level issues 
relating to security, including support of militias, al-Qaeda, and 
border security. We are working on the composition, level of 
representation, and function of such a committee.

    Question. Recent reports from Basra, Iraq's second largest city, 
indicate extremist groups may be taking control of this key city.

  <bullet> How would you characterize the situation in Basra?
  <bullet> What is the plan to address the growing challenges in this 
        strategically important city?

    Answer. There is considerable instability in Basra. Intra-Shia 
violence in Basra has contributed to a significant increase in attacks 
against coalition forces in Basra and greater hostility toward the 
coalition presence. The ongoing violence has highlighted the failure of 
the Iraqi police to challenge Iranian-backed Shia militants in southern 
Iraq.
    The security situation in Basra is a concern to us and our 
coalition partners, particularly the British, who have responsibility 
for Basra province. In June, the Chief of Police in Basra was replaced, 
as was the Basra Operations Commander. While the full impact of these 
new leaders remains to be seen, both have already improved the 
situation on the ground, with the new Chief of Police addressing issues 
of concern regarding the Basra police force and the new Operations 
Commander focusing on militia activity. There is currently a proposal 
to create a new 14th Army Division in the south which will assist the 
Iraqi Army 10th Division already stationed in the region. Coalition 
Forces are also working with the Iraqi Government to create a new 
Presidential Palace Protection force which will ultimately take over 
responsibility for the protection of the Basra Palace Complex once it 
is handed over to Iraqi control. The ultimate goal is to see Basra 
under Provincial Iraqi Control, but implementing this transition will 
be a conditions-based decision made jointly by MNF-I and the Iraqi 
Government. Until that time, coalition forces will continue to conduct 
operations against militia elements in cooperation with Iraqi Security 
Forces.
                                 ______
                                 

Submitted by Senator George V. Voinovich: Letter to President George W. 
 Bush and Senator Voinovich's Proposed Plan ``The Way Forward in Iraq''

                                                     June 26, 2007.
President George W. Bush,
The White House,
Washington, DC.
    Dear Mr. President: The United States has been faced with 
tremendous challenges during your administration. As the United States 
engages in its fifth year in Iraq, I submit to you respectfully that we 
must begin to develop a comprehensive plan for our country's gradual 
military disengagement from Iraq and a corresponding increase in 
responsibility to the Iraqi government and its regional neighbors. 
Though it may seem contradictory, I believe we can accomplish more in 
Iraq by gradually and responsibly reducing our forces and focusing on a 
robust strategy of international cooperation and coordinated foreign 
aid. We must not abandon our mission, but we must begin a transition 
where the Iraqi government and its neighbors play a larger role in 
stabilizing Iraq.
    As you know, I have been concerned about the situation in Iraq for 
some time. Nonetheless, I was steadfast in voting against any 
legislation that would limit or cut off spending for the war. I have 
consistently opposed attempts to limit your powers as our Commander-in-
Chief, and I have openly opposed any form of precipitous withdrawal 
that would threaten our men and women in uniform, endanger American 
interests, or abandon the commitment we have made to the people of Iraq 
who do want our help.
    A policy of responsible military disengagement with a corresponding 
increase in non-military support is the best way to advance our 
nation's interests in Iraq and achieve our primary goals: to help 
Iraqis stabilize their country and improve the security of the United 
States. However, I am also concerned that we are running out of time.
    The commitment of the United States to the principles of democracy 
and freedom will not falter. Our military has fought courageously and 
admirably, and it is time to pursue a strategy that combines the 
resources of our military with the resources of our diplomatic corps 
and international partners. I have enclosed a brief position paper that 
outlines my thoughts for a way forward in Iraq .
    I hope that you will review this paper, and the many other 
recommendations that have been proposed, as you fulfill the 
responsibilities of being our Commander-in-Chief. My prayers are with 
you and our nation.
            Sincerely,
                                       George V. Voinovich,
                                             United States Senator.
    Enclosure.

                        the way forward in iraq
    It is in our Nation's security and economic interests to begin to 
change our strategy in Iraq and initiate a plan for a responsible 
military disengagement. We have lost 3,530 lives to military operations 
in Iraq. We have spent over $378 billion plus the funds that were 
appropriated in the most recent supplemental bill. Our national debt is 
rising and our government is being forced to abandon critical domestic 
priorities. Our public image to the world has deteriorated drastically 
and continues to suffer. If we proceed on the current path, we will 
endanger our Nation's long-term competitiveness and well-being. 
Moreover, political realities in Washington will force change. As we 
approach the 2008 Presidential election campaign, the people of the 
United States may choose to elect a President that promises an 
immediate withdrawal. This could be very dangerous for the region and 
American national security interests. Therefore, it is time to deal 
with the realities--the inevitability of our eventual disengagement--
and begin the planning for a new way forward in Iraq.
Military Disengagement Does Not Equal Abandonment
    It is absolutely critical that we avoid being forced into a 
precipitous withdrawal, whether it is because of world events or our 
own political atmosphere at home. The dangers of a precipitous 
withdrawal include the potential destabilization of the region; the 
disintegration of United States relations with various allies in the 
region; the endangerment of vital energy supplies in the Middle East; 
and irreparable damage to the credibility of the United States 
throughout the world (especially if we leave and a humanitarian crisis 
ensues). If we lose the opportunity to implement a responsible military 
disengagement on our own terms, we may find ourselves unable to prevent 
the aforementioned dangers. Therefore, we must formulate a strategy for 
disengagement that seeks to prevent these outcomes and protect our 
long-term, strategic interests in the region.
    While our men and women in the field courageously fight day in and 
day out, complex power struggles in the region and among Iraq's 
religious sects and political factions continue to undermine American 
troops. Iraq's elected government has not yet proved capable of forging 
a political reconciliation and winning the support of these groups. 
Following the second attack on a Shiite shrine in Samarra, Iraq's 
Government has grown increasingly nervous as political factions split 
even further. Shiites are now fighting with Shiites in neighborhoods 
that were previously calm. According to the testimony of numerous 
experts and officials who have testified to the Senate Foreign 
Relations Committee and the Senate Armed Services Committee, Iraq's 
problems cannot be solved with a military solution alone. Rather, 
Iraq's future rests largely on political solutions within the Iraqi 
Government, its perceived leaders and Iraq's neighboring countries 
where American influence is limited. Currently, the only leverage we 
have to influence these actors and trigger political cooperation is 
through the presence and/or removal of our military forces from Iraq.
    Unfortunately, the presence of American forces in Iraq is being 
exploited by Iraq's political actors, religious sects, and militias, as 
well as al-Qaeda, other foreign fighters, and Iraq's neighboring 
countries. Their leaders are not moving quickly to make responsible 
decisions and change the situation, because the continued presence of 
American forces fuel their arguments and make compromise unnecessary. 
Therefore, our best chance of stabilizing Iraq is to develop and 
implement a strategy for United States military disengagement that is 
coupled with a robust diplomatic effort to contain instability and 
protect our interests in the region. It is time the Iraqi Government 
and its regional neighbors take a greater responsibility in stabilizing 
this situation. Military disengagement is the only way to force Iraq's 
leaders and neighboring countries to make the difficult decisions 
needed to create stability and prevent a catastrophe in the region. 
Only by initiating such a strategy can we hope to achieve all of the 
following goals:

        Compel Iraq's leaders and neighbors to take actions that will 
        support stability in Iraq and prevent chaos in the region;

        Make al-Qaeda's mission to drive out U.S. forces obsolete, so 
        Iraqi tolerance for al-Qaeda decreases;

        Stop terrorist networks from using Iraq's perceived occupation 
        as a recruitment tool;

        Develop a plan for Iraq that can be endorsed by all of Iraq's 
        neighbors and key international organizations;

        Agree on a timeline for disengagement that is acceptable to the 
        people of Iraq, blessed by the international community, and 
        easier to implement because it has their support;

        Protect key American alliances in the region by working with 
        them to develop our exit strategy and working to address their 
        fears and concerns;

        Preserve American credibility by staying involved in Iraq and 
        focusing more energy on refugee assistance, humanitarian aid, 
        and reconstruction aid;

        Focus our resources on other fronts in the war on terrorism; 
        and

        Rest and repair our military forces for potential future 
        conflicts.

    Military disengagement cannot be viewed as an abandonment of Iraq 
or our long-term strategic interests in the region. If we pursue a 
well-developed and comprehensive plan for withdrawing U.S. forces, we 
will have a better chance of achieving our goals and sustaining 
domestic support for a continued commitment in the future. Drawing out 
our current efforts indefinitely will deplete our resources and limit 
our options when we eventually decide to draw down our forces. By 
forming the strategy now, we have time on our side and can mitigate the 
possible negative consequences of our departure.
                        what is the way forward?
A Clear Announcement and a Clear Commitment
    The United States should begin by issuing a clear announcement 
about the intention to responsibly withdraw our military forces from 
Iraq, while stressing our commitment to remain engaged in Iraq's future 
and the future stability of the Middle East. The statement should and 
must go hand in hand with a demonstration of our decision, to ensure 
that it is taken seriously. The demonstration could be to draw back a 
significant number of our forces to major military garrisons or to 
redeploy them to forward operating bases in neighboring countries. The 
goal would be to reduce our visible presence, while sustaining our 
ability to respond immediately to any serious crisis or attack on U.S. 
soldiers or installations.
    The announcement should also be coupled with an expression of our 
commitment to Iraq's future and our determination to stay involved in 
the region and prevent its destabilization. We must make clear that our 
decision to leave is based on a desire to bring an end to the violence, 
to force out foreign fighters, and to allow Iraqis to reclaim their 
country from terrorists and militants. We must also emphasize that we 
will come to Iraq's assistance if asked, and that we will remain in the 
region to assist our other allies as well.
    Lastly, we should make clear our pledge to provide Iraq with our 
financial and humanitarian assistance for the next several years, 
including a special program for assisting refugees who have left Iraq 
and refugees who want to return to Iraq when the violence stops. Prior 
to the announcement, we should have a plan in place to resettle a 
portion of Iraqi refugees in the United Sates, especially those who 
helped U.S. forces as linguists, informants, or in other ways.
An International Conference and Shuttle Diplomacy
    Military disengagement must go hand in hand with a plan for robust 
diplomatic engagement aimed at preventing instability and leveraging 
Iraq's neighbors to help us prevent chaos in the region. On the 
multilateral front, the United States should organize an international 
conference to bring together Iraq's neighbors, the five permanent 
members of the U.N. Security Council, and the U.N. Secretary General. 
The purpose of the conference would be to discuss how to maintain 
stability in the Middle East, manage the refugee crisis, and forge a 
new political compact in Iraq that will address key political issues in 
Iraq, including resource allocation, de-Baathification, and 
reconciliation. The conference should aim to produce an agreement among 
its participants and a subsequent U.N. Security Council Resolution. The 
agreement should establish agreement on a number of important issues, 
including respect for Iraq's sovereignty and its current borders, and 
any arrangement to provide an international peacekeeping force if 
sectarian conflict leads to a humanitarian crisis.
    On the margins of the international conference, the United States 
should conduct a series of focused bilateral meetings with Iraq's 
leadership, our allies, and Iraq's neighbors. The meetings should 
address specific concerns, including cooperation to control Iraq's 
borders and cooperation to prevent retaliatory attacks on U.S. soldiers 
upon withdrawal. We should make clear that any coordinated attack on 
U.S. soldiers would be responded to with speed and severity.
A Substantial Package of Foreign Aid
    The way forward and out of Iraq will require a substantial aid 
package for Iraq. This is an important step and will send a clear 
message that we intend to keep our promise to the Iraqis and help 
stabilize their country. We will also need to provide foreign aid to 
key partners in the region, such as Jordan and Kuwait, who will be 
impacted strategically and economically by military disengagement. This 
must include refugee assistance and increased economic and security 
assistance to help them deal with the thousands of Iraqi refugees and 
manage security at their borders. It is a sign of goodwill that 
advances U.S. interests by helping to protect our partnerships and 
prevent the spread of instability through the region. Though some may 
balk at the expense of foreign aid to Iraq or other partners, it is 
only a fraction of the costs of sustaining war operations.
Sustain U.S. Credibility and Bolster Public Diplomacy
    As a final and critical component of any plan for military 
disengagement, we must find ways to restore our credibility and 
standing in the world. The war in Iraq was a major blow to our soft 
power and public diplomacy. It cannot be rebuilt overnight, but steps 
should be taken to prevent the further deterioration of our image in 
the aftermath of a withdrawal. First, we should follow up our 
disengagement from Iraq with an announcement of our commitment to 
remain involved in the greater fight against terrorism and to engage 
more heavily in Afghanistan and the Global War on Terrorism. We should 
devote more resources to strangling terrorist financial networks, 
promoting international law enforcement cooperation, and ridding 
countries of dangerous madrassas that train terrorists. Second, we 
should give a visible priority to the Middle East Peace Process and our 
relations with all countries in the Middle East. We must show that our 
disengagement from Iraq does not represent an abandonment of our 
commitment to stabilize the Greater Middle East. Third, we should 
pursue a significant foreign aid program that will draw attention to 
the United States good works and involvement in the world. This could 
begin with our commitment to pay the full amount of our current 
outstanding dues to the U.N. for international peacekeeping and other 
arrears, which would send a powerful message to the world and bolster 
the American image tremendously.
Conclusion
    I believe that we can set our Nation on a new course in Iraq that 
has bipartisan support in Congress and sustains our commitment to the 
people of Iraq. We can share more of the responsibility with Iraqis and 
their neighbors, while protecting our vital interests. We must begin 
the process now. The United States is a powerful and principled nation, 
and we are entering just one more phase of our Nation's history. Our 
courage and resolve can carry us through this experience and into a new 
phase of global leadership.

                                  <all>

</pre></body></html>
